No. 20IN THE SUPREME COURT
OF THE UNITED STATES

Tri-State Zoological Park of Western Maryland, Inc.,
Animal Park, Care & Rescue, Inc., and Robert L. Candy
Petitioners,
v.
People for the Ethical Treatment of Animals, Inc.
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI

LYNN T. KRAUSE
Counsel of Record
KAGAN, STERN, MARINELLO
& BEARD, LLC
238 West Street
Annapolis, MD 21401
443-994-0403
krause@kaganstern.com

1a

APPENDIX 1
[Before WILKINSON and KING, Circuit Judges,
and SHEDD, Senior Circuit Judge, Entered
January 29, 2021]
UNPUBLISHED
UNITED STATES COURT OF APPEALSFOR THE
FOURTH CIRCUIT

No. 20-1010

PEOPLE FOR THE ETHICAL TREATMENT OF
ANIMALS, INC.,
Plaintiff - Appellee,
v.
TRI-STATE ZOOLOGICAL PARK OF WESTERN
MARYLAND, INC.; ANIMAL PARK, CARE &
RESCUE, INC.; ROBERT L. CANDY,

2a

Defendants - Appellants.

Appeal from the United States District Court for
the District of Maryland, at Baltimore. Paula
Xinis, District Judge. (1:17-cv-02148-PX)

Submitted: January 11, 2021
Decided: January 29, 2021

Before WILKINSON and KING, Circuit Judges,
and SHEDD, Senior Circuit Judge.

Affirmed by unpublished per curiam opinion.

Lynn T. Krause, BRADY, FISCHEL AND DAILY,
LLC, Annapolis, Maryland; Nevin L. Young,
Annapolis, Maryland, for Appellants. Adam B.
Abelson, Baltimore, Maryland, Marcos E. Hasbun,

3a

ZUCKERMAN SPAEDER LLP, Tampa, Florida;
Caitlin
Hawks,
Zeynep
Graves,
PETA
FOUNDATION, Los Angeles, California, for
Appellee.

Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
People for the Ethical Treatment of Animals, Inc.
(PETA) filed a complaint againstTri-State Zoological
Park of Western Maryland, Inc., Animal Park, Care
& Rescue, Inc., and Robert L. Candy, seeking
declaratory and injunctive relief in connection with
Defendants’ treatment of two ring-tailed lemurs,
five tigers, and one African lion (collectively, “the
eight animals”). PETA’s two-count complaint
claimed that the conditions under which Defendants
maintained the eight animals constituted an
unlawful taking proscribed by the Endangered
Species Act of 1973 (ESA or the Act) and its

4a

implementing regulations.1 The district court denied
Defendants’ Fed. R. Civ. P. 12(c) motion for
judgment on the pleadings, concluding that PETA
had standing to bring suit. The court later denied
Defendants’
summary
judgment
motion—
determining that PETA had demonstrated a
sufficient injury to its mission arising from
Defendants’ claimed misconduct and that the relief
PETA sought was available—and granted partial
summary judgment in PETA’s favor. The parties
then proceeded to a bench trial, at which Dr. Kim
Haddad testified as an expert in the area of
veterinary medicine with regard to lions, tigers, and
lemurs. After trial, the district court found that
PETA had organizational standing in the case and

1

The ESA prohibits the “tak[ing]” of any endangered or
threatened species of wildlife within the United States, 16
U.S.C. § 1538(a)(1)(B), and makes it unlawful “for any person
subject to the jurisdiction of the United States” to “possess” an
endangered or threatened species that has been unlawfully
“taken,” id. § 1538(a)(1)(D). The ESA definesthe term “take” as
“to harass, harm, pursue, hunt, shoot, wound, kill, trap, capture,
or collector to attempt to engage in any such conduct.” Id. §
1532(19). The ESA allows “any person” to commence a civil suit
on his own behalf “to enjoin any person . . . who is allegedto be
in violation” of the “take” provision of the Act or of a regulation
promulgated underthe Act. Id. § 1540(g)(1)(A).

5a

found for it on all theories of liability.
On appeal, Defendants challenge the district
court’s standing rulings, arguing that PETA failed
to plead in its complaint and prove at the summary
judgment stage and later at trial that it suffered an
organizational injury. Defendants also argue that
PETA failed toplead in its complaint and prove at
the summary judgment stage and then later at trial
the availability of relief that would redress its
claimed injuries and that a due process violation
resulted from the way in which PETA responded to
their summary judgment motion and proposed
following trial that animals unlawfully taken under
the ESA be transferred to an animal sanctuary.
Finally, Defendants contend that the district court
erred in permitting Dr. Haddad to testify at trial—
after rejecting their summary judgment argument
that her opinion should be struck—regarding the
veterinary care provided at Tri-State. Finding no
reversible error, we affirm.
Although neither party has addressed the
propriety of Defendants’ effort to appeal the district
court’s denial of their summary judgment motion, “it
is well settled that [this court] ‘will not review, under
any standard, the pretrial denial of a motion for
summary judgment after a full trial and final
judgment on the merits.’” Bunn v. Oldendorff

6a

CarriersGmbH & Co. KG, 723 F.3d 454, 460 n.3 (4th
Cir. 2013) (quoting Varghese v. Honeywell Int’l, Inc.,
424 F.3d 411, 421 (4th Cir. 2005)); see Ortiz v.
Jordan, 562 U.S. 180, 183-84 (2011). We find no
reason to deviate from that rule here. Accordingly,
Defendants’ challenges directed at the district
court’s denial of their motion for summary judgment
are not properly before this court and must be
denied.
Next, we review the district court’s standing
rulings de novo. Hill v. Coggins,867 F.3d 499, 505
(4th Cir. 2017); Drager v. PLIVA USA, Inc., 741 F.3d
470, 474 (4th Cir. 2014).
“As the Supreme Court has consistently
emphasized, Article III of the Constitutionlimits the
jurisdiction of federal courts to Cases and
Controversies.” Hutton v. Nat’l Bd. of Exam’rs in
Optometry, Inc., 892 F.3d 613, 619 n.5 (4th Cir. 2018)
(internal quotation marks omitted). “The requirement
that a [p]laintiff possess standing to sue emanates
from that constitutional provision.” Id. (internal
quotation marks omitted).
To possess standing to sue under Article III, a
plaintiff must have “(1) . . . sufferedan injury-in-fact
that was concrete and particularized and either
actual or imminent; (2) there [must have been] a
causal connection between the injury and the

7a

defendant’s conduct (i.e. traceability); and (3) the
injury [must have been] likely to be redressable by a
favorable judicial decision.” Hutton, 892 F.3d at 61819 (citing Lujan v. Defs. of Wildlife, 504 U.S. 555,
560-61 (1992)).
The burden of sufficiently
establishing these three elementsfalls on the party
invoking federal jurisdiction—here, PETA. Lujan,
504 U.S. at 561; Hutton, 892 F.3d at 619. An
organization like PETA can assert standing based
on two distinct theories. It can assert standing in its
own right to seek judicial relief for injury to itself
and as a representative of its members who have
been harmed. See S. Walk at Broadlands
Homeowner’s Ass’n, Inc. v. OpenBand at Broadlands,
LLC, 713 F.3d 175, 182 (4th Cir. 2013). It is the
former option-referred to as organizational standingthat is at issue here.
In
determining
whether
organizational
standing exists, “a court conducts the same inquiry
as in the case of an individual.” Md. Highways
Contractors Ass’n, Inc. v.Maryland, 933 F.2d 1246,
1250 (4th Cir. 1991). This evaluation, “of course,
depends notupon the merits” of the claims asserted
“but on whether the plaintiff is the proper party to
bring the suit.” White Tail Park, Inc. v. Stroube, 413
F.3d 451, 460 (4th Cir. 2005) (internal citation,

8a

quotation marks, and brackets omitted).
With respect to an injury-in-fact, “the first
and foremost of standing’s three elements,” Spokeo,
Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016) (internal
quotation marks and brackets omitted), an
organization that “seek[s] to do no more than
vindicate [its] own value preferences through the
judicial process” cannot establish standing, Sierra
Club v. Morton, 405 U.S. 727, 740 (1972). An
organization like PETA, however, “may suffer an
injury in fact when a defendant’s actions impede
its efforts to carry out its mission.”Lane v. Holder,
703 F.3d 668, 674 (4th Cir. 2012) (citing Havens
Realty Corp. v. Coleman,455 U.S. 363, 379 (1982));
see Warth v. Seldin, 422 U.S. 490, 511 (1975).
In Havens Realty, the Supreme Court held
that an organization dedicated to achieving equal
opportunity in housing had sufficiently alleged
organizational injury and that the district court had
erred in dismissing for lack of standing the
organization’s complaint to sue an apartment
complex based on allegedly unlawful racial steering
practices. 455 U.S. at 379. The organization had
alleged that it “ha[d] been frustrated bydefendants’
racial steering practices in its efforts to assist equal
access to housing through counseling and other
referral services,” and that it had “devote[d]

9a

significant resources to identify and counteract the
. . . racially discriminatory steering practices.” Id.
(internaluotation marks omitted). The Supreme
Court reasoned that “[i]f, as broadly alleged, [the]
steering practices ha[d] perceptibly impaired [the
organization’s] ability to provide counseling and
referral services for low- and moderate-income
homeseekers, there c[ould] be no question that [it]
had suffered [an] injury in fact” because “[s]uch
concrete and demonstrable injury to the
organization’s activities-with the consequent drain
on the organization’s resources-constitute[d] far
more than simply a setback to the organization’s
abstract social interests.” Id.
Subsequently, in Lane, this court held that an
organization dedicated to promoting the exercise of
the right to keep and bear arms did not sufficiently
allege standing to sue the Attorney General of the
United
States
based
on
an
allegedly
unconstitutional statute restricting interstate
transfers of certain firearms. 703 F.3d at 671, 675.
The organization had claimed that it “ha[d] been
injured because its resources [we]re taxed by
inquiries into the operation and consequences of
interstate handgun transfer provisions.” Id. at 675
(internal quotation marks omitted). This court
rejected the organization’s effort to analogize its

10a

position to that of the organization in Havens Realty
and reasoned that “[t]his mere expense to [the
organization] d[id] not constitute an injury in fact”
because “[a]lthough a diversion of resources might
harm the organization by reducing the funds
available for other purposes, it results not from any
actions taken by the defendant, but rather from the
organization’s own budgetary choices.” Id. (internal
quotation marks and brackets omitted). This court
further noted that, “[t]o determine that an
organization that decides to spend its money on
educating members, responding to member
inquiries, or undertaking litigation in response to
legislation suffers a cognizable injury would be to
imply standing for organizations with merely
abstract concerns with a subject that could be
affected by an adjudication,” which “would not
comport with the case or controversy requirement of
Article III of the Constitution.” Id. (internal
quotation marks omitted). Post-Havens Realty and
Lane, this court has reaffirmed that a plaintiff has
suffered an organizational injury if the challenged
policy or practice frustrated both its purpose and
caused a drain on its resources. See S. Walk, 713 F.3d
at 183 (distinguishing Havens Realty as finding
organizational injury where “broadly alleged”
impairment of organization’s ability to advance its

11a

purposes combined with alleged “consequent drain
on the organization’s resources”).
We conclude after review of the allegations in
PETA’s complaint and the proof adduced at trial that
PETA has satisfied the standard set forth in Havens
Realty. As allegedand proved, PETA’s mission is to
protect animals from abuse, neglect, and cruelty.
PETA pursues this mission through several
programs, including public education, cruelty
investigations and research, the rescue of animals,
and protest campaigns. Defendants’ take of animals
at Tri-State protected by the ESA increased animals
subject to abuse and created the misimpression that
the conditions in which the animals were kept were
lawfuland consistent with animal welfare. PETA is
required by its mission to protect and rescueanimals
from abuse and neglect, and, in accordance with this
mission-based requirement, devoted its resources to
submit complaints about Defendants to government
agencies, compile and publish information about
Tri-State’s treatment of its animals, and to
investigate and monitor Defendants.
The
allegations and evidence adduced showed that this
diversion of resources impeded PETA’s efforts to
carry out its mission by reducing its ability to engage
in mission-related campaigns against other zoos. On
the record here, Defendants’ ESA-violative conduct

12a

“perceptibly impaired” PETA’s ability to carry out its
mission through frustration of that mission and a
consequent drain on its resources. Havens Realty,
455 U.S. at 379. “Such concrete and demonstrable
injury to the organization’s activities . . . constitutes
far more than a simple setback to the organization’s
abstract socialinterests.” Id.; see also S. Walk, 713
F.3d at 183.
Defendants’ arguments on appeal do not
establish to the contrary. Included under the
umbrella of Defendants’ assertion that there was no
injury-in-fact giving rise to PETA’s standing is the
argument that this case is devoid of allegations or
evidence that any member, affiliate, or agent of
PETA suffered any aesthetic or emotional injury in
visiting Tri-State. This assertion misses the point.
Although Defendants correctly note that no
individual person-plaintiffs alleged or proved an
aesthetic injury, that failure has no relevance to the
question here, which is whether the district court
reversibly erred in its rulings that PETAalleged and
proved an injury-in-fact.
Defendants
also
assert
that
PETA
manufactured “its own attempt at standing” by
“choosing a target, spending money and then filing”
the subject lawsuit and that these acts do not
establish an injury-in-fact. Defendants further

13a

suggest that the district court’s rulings cannot be
squared with Lane and that Havens Realty does not
support a cognizable injury for PETA here. Lane,
however, noted that “[a]n organization may suffer an
injury in fact when a defendant’s actions impede its
efforts to carry out its mission,” such as “in Havens,”
when the defendant’s practices “perceptibly
impaired” a “key component” of the organization’s
mission. 703 F.3d at 674-75 (internal quotation
marks omitted). PETA did not allege or prove that
its injury consisted of the costs associated with the
instant lawsuit,but, rather, satisfied Havens Realty
by alleging and proving that Defendants’ actions
impaired its ability to carry out its mission combined
with a consequent drain on its resources.
Accordingly, we affirm the district court’s rulings
that PETA alleged and proved an injury-in-fact.
Defendants also argue that PETA failed to
allege and prove at trial that the relief itrequested
would redress its claimed injury and that a due
process violation resulted from the way in which
PETA responded to their summary judgment motion
and proposed following trial that animals unlawfully
taken under the ESA be transferred to an animal
sanctuary. Defendants, however, do not present
these claims in accordance with Fed. R. App. P.
28(a)(8)(A) (“[T]he [appellant’s] argument . . . must

14a

contain . . . appellant’s contentions and the reasons
for them, with citations to the authorities and parts
of the record on which the appellant relies.”). We
therefore deem them abandoned, see EEOC v. Md.
Ins. Admin., 879 F.3d 114, 122 n.10 (4th Cir. 2018);
Jacobs v. N.C. Admin. Office of the Courts, 780 F.3d
562, 568 n.7 (4th Cir. 2015), and affirm the district
court’s standing rulings.
Finally, with respect to Dr. Haddad’s trial
testimony, Defendants’ argument that hertestimony
regarding the veterinary care provided at Tri-State
was without foundation and therefore should have
been excluded is also presented without conformity
to Rule 28(a)(8)(A) and thus has been abandoned as
well. Insofar as Defendants are challenging Dr.
Haddad’s credibility as a witness, the district court’s
determination on witness is not reviewable. See
United States v. Saunders, 886 F.2d 56, 60 (4th Cir.
1989).
Accordingly, we affirm the district court’s
judgment. We dispense with oral argument because
the facts and legal contentions are adequately
presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

15a

APPENDIX 2
FILED: January 29, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1010
(1:17-cv-02148-PX)

PEOPLE FOR THE ETHICAL TREATMENT
OF ANIMALS, INC.
Plaintiff - Appellee
v.
TRI-STATE ZOOLOGICAL PARK OF WESTERN
MARYLAND, INC.;ANIMAL PARK, CARE &
RESCUE, INC.; ROBERT L. CANDY
Defendants - Appellants

16a

JUDGMENT

In accordance with the decision of this court,
the judgment of the district court is affirmed.
This judgment shall take effect upon issuance
of this court's mandate in accordance with Fed. R.
App. P. 41.

/s/ PATRICIA S. CONNOR, CLERK

17a

APPENDIX 3
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
PEOPLE FOR THE ETHICAL TREATMENT OF
ANIMALS, INC.,
Plaintiff,

*

v.

Civil Action
No. 8:17-cv02148-PX

*
TRI-STATE ZOOLOGICAL PARK OF WESTERN
MARYLAND, INC., et al.,
Defendants.

***
MEMORANDUM OPINION

This opinion and order follow a six-day bench
trial brought by People for the Ethical Treatment of
Animals (“PETA”) against Defendants Tri-State
Zoological Park of Western Maryland Inc., Animal
Park, Care & Rescue, Inc., and Robert Candy
(collectively, “Tri-State”), the owners and operators
of a zoological park in Cumberland, Maryland. ECF
No. 26 ¶¶ 12–14. The animals protected under the
Endangered Species Act (ESA)—the lions, tigers,
and lemurs— are the subject of this lawsuit. ECF

18a

No. 1 ¶¶ 2–3.
Shortly before this lawsuit began, Tri-State
was home to two lemurs, Bandit and Alfredo; five
tigers, Cheyenne, Cayenne, India, Kumar, and
Mowgli; and two lions, Peka and Mbube.
Since 2016, five of the nine animals, more than
half of the protected species, have died at Tri- State.
Alfredo has been transferred to the Maryland Zoo
(JX7 at 3), and only Cheyenne, Mowgli, and Peka
remain alive and at Tri-State.
PETA initiated suit on July 31, 2017, alleging
violations of the Endangered Species Act, 16 U.S.C.
§ 1531 et seq. ECF No. 1. The suit proceeded to
summary judgment and on July 8, 2019, this Court
granted in part and denied in part summary
judgment in PETA’s favor. ECF No. 138.
At trial, PETA argued that Defendants have
violated the ESA by subjecting the protected animals
to harm and harassment. PETA contended that
Defendants have committed a “take” as understood
in the ESA arising from Tri-State’s provision of
unsanitary
living
conditions,
poor
diets,
substandard veterinary care, and inadequate
shelter and enrichment. Trial exposed Tri- State and
Candy’s flagrant and persistent violations of the
ESA. For the following reasons, and based on the
following facts, the Court finds in favor of PETA on
all theories of liability.

19a

I.

Findings of Fact1
A. General Conditions Affecting the
Protected Species
1.

The Zoo Grounds

The uncontroverted testimony reflects that every
animal at issue suffered under Tri- State’s living
conditions. The zoo is situated on sixteen acres of
what used to be an old campground. Trial Tr. vol 5,
11. Past the ramshackle entrance are a range of
enclosures and buildings that house its
approximately fifty animals. Trial Tr. vol. 5, 21–22;
JX37. These include a gated farm animal enclosure,
a reptile room and a kinkajou room, both situated
The evidence presented at trial largely consisted of PETA’s
undercover visits (December 11 and 12, 2014; January 28,
2015; and March 5, 2015) (Trial Tr. vol 1, 53); PETA’s site
inspections conducted after this lawsuit commenced (March 3,
2018 and September 22, 2019) (ECF No. 34; PX84; ECF No.
145); the expert testimony and reports of Dr. Kim Haddad, a
veterinarian with education and training in small primates
and Big Cats, and Mr. Jay Pratte, a specialist in the field of
animal husbandry; records kept by Tri-State; and abundant
video and photographic evidence obtained by PETA during the
course of its many visits to the facility. The Court also admitted
deposition testimony of several witnesses, including Connie
Collins, Stuart Henstock, Christopher Fontes, and Brittany
Peet. On behalf of Tri-State, the Court heard from Robert
Candy, Tri-State’s owner and founder.
1

20a

around the corner of a kitchen in which food is
prepared, an aviary across the path from the reptile
room, an approximately six-foot diameter pool for
large alligators, and a group of small primate
enclosures. See generally JX37. And, of course, the
zoo houses separate enclosures for the tigers, lions,
and lemurs.
Trial evidence demonstrated that since PETA
began its investigation, the animals have been
housed in fetid and dystopic conditions. Filth and
feces dominate Tri-State. PETA’s undercover
investigation in 2014 and 2015 documented animal
excrement throughout the zoo grounds—in the
kitchen where animal food is prepared, the room
that houses the reptile exhibits, the grounds
generally, and in each of the protected animals’
enclosures. See generally PX20–24; PX30; PX45–47;
PX74; PX77; see also photos below (documenting
feces and decaying vegetables in kinkajou cages and
the aviary across more than a month).

21a

Kinkajou cage, PX45 at :53 (12/12/2014)

Kinkajou cage, PX46 at :59 (1/28/2015)

22a

Kinkajou cage, PX45 at 1:13 (12/12/2014)
Kinkajou cage, PX46 at :51 (1/28/2015)

Aviary, PX76 at :12
(12/12/2014) Aviary, PX47 at :38 (1/28/2015)

Rotting
vegetables
spilled
over
large
receptacles, decaying meat sat in piles outside the
kitchen and in the furnace room under the nearby

23a

reptile house, and decomposing carcasses were left
for days in the enclosures for the tigers and lions
(collectively “Big Cats”). See generally PX21–22;
PX27; PX73–74; PX77. General filth coated the
kitchen, from the walls and sink to the refrigerator.
PX75; Trial Tr. vol. 2, 101. A trashcan filled with
waste stood uncovered. Id.

Moldy sweet potatoes
PX75 at :14 (12/11/2014)

Uncovered kitchen trashcan
PX75 at :09 (12/11/2014)

Outside the kitchen, piles of donated produce
lay unrefrigerated, many in a state of decay and long
past their expiration dates. PX73; PX19; PX17; Trial
Tr. Vol. 1, 80, 97, 100. Free- roaming cats, chickens,
and ducks took turns scavenging the piles. Id.

24a

Food stored in piled boxes outside the kitchen, PX17
(3/4/2015); PX 32 (12/11/2014)

In the reptile room, just feet away from the
kitchen, “decaying remnants of fruits and vegetables
were scattered across the floor, and there were []
large smears of feces, presumably from the sulcatas
[tortoises].” PX74 at :00–2:09, 2:27–3:50; Trial Tr.
vol. 1, 78–80. Rotten scraps of vegetables and feces
scattered the marmoset cage, which is stationed in
the reptile room. PX77; Trial Tr. vol. 1, 92. Of the

25a

rooms near the kitchen, PETA investigator Stuart
Henstock stated that they “smelled horrendous, [ ]
an almost choking smell of feces” and of “rotting
vegetables.” Trial Tr. vol. 1, 79, 89.
Accumulation of feces and rotten scraps of vegetables in
the marmoset cage, located in the reptile room
PX77 at :47, 12/12/2014.

In the indoor tiger enclosures, tufts of fur
coated rusted bars, and carcasses, bones, feathers,
fur, and debris mixed with dirty straw. Trial Tr. vol.
1, 138–39, 144.

Mowgli’s indoor enclosure, PX27 (12/14/14)

26a

Cheyenne’s indoor enclosure, PX20 (1/28/15)

The tigers’ outdoor enclosures contained piles of
feces, discolored water sources filled with decaying
leaves, and large spots of urine residue accumulated
over time. PX31; Trial Tr. vol. 1, 76; Trial Tr. vol. 4,
34.

Tiger enclosure, PX24 at 1:39 (12/12/14)
Tiger enclosure, PX16 (9/11/16)

Throughout the grounds, free-roaming animals
traipsed between rooms and enclosures. See
generally PX11; PX12; PX19; PX74; PX75; Trial Tr.
vol. 1, 135. Scores of domestic cats, many of whom

27a

are unvaccinated, sported matted and unkempt fur
along with crusted, watery, or bloody discharge
seeping from their eyes, nose, or ears. JX39, Candy
30(b)(6) Dep. 336; PX12 at 1; Trial Tr. vol. 2, 66–68,
101–102. The cat in the screenshot below, for
example, had “obvious ocular discharge,” according
to Dr. Haddad. Trial Tr. vol. 2, 102.

Cat in kitchen, PX25 at 27 (12/11/14)

Candy and zoo volunteers take no precautions
to minimize the filth or stop the spread of disease.
Tri-State has no areas designated for cleaning that
are standard at zoos and sanctuaries, such as
footbaths and cleaning receptacles. Trial Tr. vol. 4,
10–11. Perhaps PETA investigators Stuart Henstock
and Chris Fontes said it best: that even though they
had visited dozens of zoos and sanctuaries combined,
Tri-State was “the dirtiest” and “worst place” they

28a

had ever seen. Trial Tr. vol. 1, 101, 149.2
2.

Inadequate Veterinary Care

Tri-State has never provided adequate
veterinary care to its lemurs, tigers, and lions. The
Animal Welfare Act (AWA) governing Tri-State’s
USDA-issued exhibitors license requires that TriState secure an attending veterinarian with speciesspecific training and experience. See 9 C.F.R. §
2.40(a) (“Each dealer or exhibitor shall have an
attending veterinarian who shall provide adequate
veterinary care to its animals in compliance with
this section.”); 9 C.F.R. § 1.1 (defining attending
veterinarian as a person who “has received training
and/or experience in the care and management of the
species being attended”) (emphasis added).
Defendants never came close to complying with this
regulation.
Between 2009 and 2018, Tri-State employed
Dr. Timothy Fox as the attending veterinarian.
JX39, Fox Dep. 8–9. After PETA initiated suit, Dr.
Fox was no longer willing to serve as the zoo’s
veterinarian, and he was replaced with Dr. Gale
Duncan. Neither Dr. Fox nor Dr. Duncan had
acquired any formal or informal training, education,
Although Tri-State attempted to clean in preparation of the
2018 and 2019 site visits, the conditions improved only
marginally. See, e.g., PX11 at 18:29; Trial Tr. vol. 2, 105–06.
2

29a

or experience working with Big Cats or primates
other than the animals at Tri-State. “I’m just a
regular old veterinarian [,] I’m not a specialty in any
of those zoo animals,” Dr. Fox admitted. JX39, Fox
Dep. 28. Dr.
Duncan readily conceded that she did not have
any experience with Big Cats or lemurs apart from
some training in veterinary school. ECF No. 138 at
6. Unsurprisingly, Dr. Fox and Dr. Duncan, in
concert with Candy, utterly failed to implement a
satisfactory program of veterinary care for the lions,
tigers, and lemurs. The AWA provides that “each
exhibitor shall establish and maintain programs of
adequate veterinary care that include . . . the use of
appropriate methods to prevent, control, diagnose,
and treat diseases and injuries . . . ” 9 C.F.R. §
2.40(b)(2). The Program of Veterinary Care (PVC)
must be written, reviewed on an annual basis, and
modified as needed. Trial Tr. vol. 2, 47, 77.
Similarly, as is standard in any medical field,
the provision of medical services must be
documented contemporaneously. Applying here is
the old adage, “if it is not written down, it did not
happen.” PX69 at 52; Trial Tr. vol. 3, 153.
Stunningly, Tri-State maintained only 86 pages
of medical records in connection with Dr. Fox’s
veterinary care for the last decade and for the entire

30a

zoo population.3 PX4. Some of the 86 pages are
invoices or duplicates. Trial Tr. vol. 2, 73–74. Only
121 pages of records are associated with Dr.
Duncan’s care. PX5. This shallow sheaf makes a
mockery of the simple requirement that exhibitors
maintain “documentation for all covered animals
showing that current medical problems and existing
chronic conditions are being addressed, and/or
receiving proper care.” PX52 at 150 (USDA Animal
Welfare Inspection Guide).
Although Tri-State minimizes the significance
of its record-keeping failures, the fact remains that
lack of such documentation detrimentally affects
animal care. As Dr. Haddad explained, Big Cats
especially do not manifest obvious signs of illness
until their conditions are serious, if not terminal.
Trial Tr. vol. 2, 72. Early detection and treatment of
illness depends on recording seemingly trivial
changes in animal behavior and appearance.
Provision of related veterinary care must likewise
receive the same careful documentation to ensure
the animals receive proper and consistent care. Trial
Tr. vol. 4, 7.
Tri-State has also abdicated its responsibility
to provide its animals preventative or palliative
care. Preventative care is fundamental to an

3Although

the zoo currently has approximately fifty animals in
its care, it had “three times that much back in 2010.” Trial Tr.
vol. 5, 22.

31a

adequate veterinary plan because “it [is] much easier
to prevent disease than it is to treat it once [disease
has] manifested itself. The . . . sooner you intervene
in any kind of medical condition or illness, the much
higher the likelihood of a successful outcome.” Trial
Tr. vol. 2, 53. Preventative care requires, at a
minimum, routine physical examination, blood tests,
fecal examinations, and immunizations. Trial Tr.
vol. 2, 54–56. Tri-State failed to provide any of it.
As to routine examinations, Tri-State records
reflect little to no routine care for the animals. PX2
at 11–12. In 2014, Dr. Fox logged one visit to the zoo,
and did not return for eleven months. Id. In 2015, he
visited just twice. Id. Dr. Fox then waited an entire
year to return and only did so for a focused
evaluation of a terminally-ill Mbube in 2016. Id.;
Trial Tr. vol. 2, 78–84. Another year and a half
passed with no visits to evaluate any of the fifty-plus
animals at Tri-State. PX2 at 11–12. In 2018, Dr.
Duncan visited for the first time, id., and Cayenne’s
death at Dr. Duncan’s hands followed soon after.
ECF No. 138 at 12. Even accepting Candy’s
representations that he discussed with Dr. Fox and
Dr. Duncan the animals’ care as needed, the
consistent lack of in-person evaluations shows
clearly that the provision of veterinary care
remained grossly inadequate.
As to routine examinations, Tri-State records
reflect little to no routine care for the animals. PX2

32a

at 11–12. In 2014, Dr. Fox logged one visit to the zoo,
and did not return for eleven months. Id. In 2015, he
visited just twice. Id. Dr. Fox then waited an entire
year to return and only did so for a focused
evaluation of a terminally-ill Mbube in 2016. Id.;
Trial Tr. vol. 2, 78–84. Another year and a half
passed with no visits to evaluate any of the fifty-plus
animals at Tri-State. PX2 at 11–12. In 2018, Dr.
Duncan visited for the first time, id., and Cayenne’s
death at Dr. Duncan’s hands followed soon after.
ECF No. 138 at 12. Even accepting Candy’s
representations that he discussed with Dr. Fox and
Dr. Duncan the animals’ care as needed, the
consistent lack of in-person evaluations shows
clearly that the provision of veterinary care
remained grossly inadequate.
As a more concrete example, no record exists
that any of the Big Cats received routine
vaccinations for common and highly communicable
diseases like rabies, panleukopenia, calicivirus,
herpesvirus, as well as vaccines for distemper and
feline leukemia virus, which are commonly
administered to high-risk Big Cats. PX69 at 32;
Trial Tr. vol. 2, 61–64. As grounds for not giving
basic preventative vaccinations, Dr. Fox claimed
“self-preservation…[g]iving a tiger a shot, that’s
difficult” and “I don’t believe they are required to
have any.” JX39, Fox Dep. 76. No record exists of
routine fecal or blood tests performed on any of the
animals at issue.

33a

When the animals became sick, Tri-State
utterly failed to provide adequate and timely care. 9
C.F.R. § 2.40(b)(2) requires the maintenance of
programs of care that include the availability of
emergency, weekend, and holiday medical
assistance when needed. In addition, palliative
treatment and pain management for serious
illnesses is a basic standard of care that should be
offered even if the cause of the underlying symptoms
is unknown. See PX69 at 13. Failure to do so may
exacerbate a condition and interfere with an
animal’s ability to engage in species-typical
behavior. Id. Yet all the animals at issue have
suffered from longstanding, chronic conditions for
which veterinary care was always too little and far
too late. Tri-State’s “pattern of waiting until animals
are very, very ill before either bringing it to the
attention of the veterinarian or until the
veterinarian actually comes out to look at the
animals” has, according to PETA’s experts,
contributed to long and painful deaths of five
endangered species. Trial Tr. vol. 2, 30.4

4

Defendants violated generally accepted standards of care
even after some of the animals at issue died. Performing a
necropsy is a basic standard of care, especially on an animal
protected under the ESA. Trial Tr. vol. 2, 136. Necropsies
provide a definitive diagnosis for cause of death and help the
zoo understand the cause and prevent it from affecting other
animals. Trial Tr. vol. 2, 150. Yet Defendants failed to perform
necropsies on Mbube and Bandit, even though both may have

34a

3.

Lack of Enrichment

Overall the Big Cats and lemurs at TriState have lived in a bacteria-ridden wasteland, and
in stark contrast to their natural habitats. General
animal husbandry practices in the industry require
that any exhibitor who chooses to keep captive such
animals must provide adequate shelter and
enrichment that resembles their natural habitat.
Candy and Tri-State made no meaningful effort to
even come close to industry standards. To illustrate
the harm that Defendants have visited -- and
continue to visit -- on the animals, the following
section addresses each species separately.
a.

Ring-Tailed Lemurs (Bandit
and Alfredo)

Ring-tailed lemurs come from Madagascar, a
tropical and lush island country in Africa. PX70 at
59. Lemurs naturally are social and highly
developed. They travel in packs of seven to as many
as thirty and enjoy complex social structures. Id. at
72. Accordingly, basic animal husbandry standards
require that lemurs in captivity should be housed in
groups of at least four to seven. Id. at 72–73; Trial
Tr. vol. 4, 92–93. Forcing a lemur to live a solitary
died from communicable diseases that could have infected their
peer species or other animals at Tri-State.

35a

existence, as was done to Bandit, visits permanent
psychological and physical injury on a species born
to engage in constant interaction with his kind. Trial
Tr. vol. 2, 147–48; Trial Tr. vol. 4, 93.
The Madagascar habitat is complex and varied,
such that lemurs have evolved to respond to and
interact with its complex surroundings. PX70 at 59.
For example, foraging, exploring, marking, and
grooming are natural species-specific behavior
developed in conjunction with their environment.

Lemur enclosure, PX12 at 12 (3/3/18)

Exhibitors who choose to care for lemurs must
endeavor to replicate their natural habitat so that
the animals may replicate their species-specific

36a

behaviors—which is to say, so they can simply be
lemurs.
At Tri-State, the lemur enclosure, while
sufficiently large, was barren and at odds with the
lemurs’ natural habitat. PX13; PX12 at 12; Trial Tr.
vol. 4, 95–96. Defendants also never developed any
real enrichment plan for the lemurs. Rather,
Defendants’ “enrichment” plan consisted of a single
written page with four nondescript bullet points
under “activities,” and no goals or appropriate list of
usable items. PX2 at 20; Trial Tr. vol. 4, 94. The
“plan” never comported with generally accepted
husbandry practices, and no evidence suggests that
it was ever designed to provide the lemurs any
opportunity to engage in the vast array of complex
and diverse behaviors known to its species. Cf. PX70
at 102–07 (multi-page list from a small facility
outlining dozens of items and opportunities to offer
lemurs to elicit a wide-range of species typical
behavior). Moreover, in the decade since the “plan”
was created, it has never been updated.
In practice, too, Defendants failed its
enrichment obligations to its lemurs. Animal
husbandry standards call for complex enclosures
with “horizontal platforms, horizontal bars, tree
branches, hanging tires, plastic chains, and nest
boxes,” PX69 at 7, along with a dynamic variety of
sensory objects. See PX70 at 102. Yet at Tri-State,
the enclosure was bare, with only a few dirty, old
toys that hung in the enclosure for years. Trial Tr.

37a

vol. 4, 95; See PX30 at :50, JX19 at :44, PX13, PX11
at 6:35 (each depicting the same children’s toy
hanging in the lemurs’ enclosure on December 11,
2014; January 28, 2015; September 16, 2015; and
March 3, 2018, respectively). Moreover, the toys
were often hazardous or unsanitary to the point of
serving as disease carriers. Trial Tr. vol. 4, 97.
The Court credits the testimony of PETA’s
animal husbandry expert, Mr. Jay Pratte, whose
over 25 years of training, education, and experience
aided this Court in its fact-finding mission. PX70 at
1. As Pratte opines, Defendants exhibited a stunning
ignorance as to how to provide the lemurs an
environment remotely appropriate to their species.
Pratte found that Defendants did not have “any
process, information, research done…into how
[to]…alleviate these [] problems, let alone that they
were even aware that they were a problem to begin
with.” Trial Tr. vol. 4, 99.
Rather than being provided enrichment, the
lemurs experienced a daily onslaught of
environmental horribles. Lemurs naturally are
“olfactory” animals. They engage in scent marking
and communication. Indeed, smelling is “inherent to
their communication, to how they interact with one
another, to detecting potential threats or resources
in the environment.” Trial Tr. vol. 4, 100. Smells of
dung and urine are not only “inherently irritating
and stressful” to the lemurs, but also “obscure their
ability to understand what’s happening in the world

38a

around them, and so [] directly impacts their ability
to exhibit normal species-typic behavior.” Trial Tr.
vol. 4, 100. In fact, exposure to such offending smells
can cause lemurs physical pain and permanent
damage to their mucous membranes. Trial Tr. vol. 4,
100.
At Tri-State, the lemurs were surrounded by
filth that undoubtedly created a significant
impediment to their ability to communicate. In their
own enclosures stood feces and bird waste. Trial Tr.
vol. 4, 89–90. Just feet away, the potbelly pig
enclosure was piled with foul-smelling pig feces.
Trial Tr. vol. 1, 67; PX30 at 4:52–5:30. Directly
behind them was another fecal- ridden enclosure
housing two barking dogs, PX30 at 3:26; Trial Tr.
vol. 1, 66, or more aptly put, “a direct predator ten
feet away that is vocalizing” and thus presenting a
“constant source of distress.” Trial Tr. vol. 4, 85–87;
JX19.
Moreover, the lemur enclosure’s indoor section
gave little real shelter from the elements. Lemurs
come from a tropical climate, and therefore do not
have insulating coats to maintain internal body
temperatures when exposed to the cold. PX70 at 61.
Accordingly, for exhibitors who choose to house
lemurs, the Association of Zoos and Aquariums
(“AZA”) guidelines advise that lemurs not be
subjected to temperatures below 45 degrees for
longer than four hours, and that they should always
have access to adequate supplemental heat. Trial

39a

Tr. vol. 2, 140; PX69 at 9. Exposure to such
temperatures negatively affects lemurs’ health,
which can lead to hypotension, suppressed appetite,
and increased vulnerability to disease. Trial Tr. vol.
2,144.PX 70 at 61.
Cumberland in the winter is decidedly not like
Madagascar. Snow falls and temperatures dip below
freezing several months of the year. JX19; Trial Tr.
vol. 4, 86. In 2015 alone, the animals at Tri-State
were exposed to temperatures below 45 degrees for
four consecutive hours for 149 days. JX17. The
lemurs had little refuge from this cold. For
“insulation,” Candy provided two electric heaters
and one heat lamp stationed below just one portion
of the enclosure. PX70 at 61; Trial Tr. vol. 5, 225–26.
Candy would monitor the temperature not by
thermometer, but by whether the drinking water in
the enclosure had frozen. JX39, Candy Dep. 151. No
credible evidence exists that the heat source
protected the lemurs from prolonged exposure to cold
temperatures that are directly at odds with the
climate of their African homeland.
b.

Lions (Mbube and Peka)

The lions live in a similarly dissonant
environment at Tri-State. Although lions come from
far warmer regions than Cumberland, Maryland, at
Tri-State they are forced to withstand temperature
extremes without proper provision. The lion

40a

enclosures allow the cats to travel freely between an
indoor and outdoor area in their respective
enclosures, DX1 at 7–8, but neither area offers
remotely sufficient protection from Maryland
temperatures.
The
indoor
enclosures
are
uninsulated and unheated. Trial Tr. vol. 4, 41, 45;
JX39, Candy Dep. Tr. at 133–35. Outdoors, the lions
have little shelter from the snow, sleet, wind, or
freezing rain.
Exposing Big Cats to inappropriately cold
temperatures can lead to hypothermia, dehydration,
and damage to the cats’ pads and mucous
membranes. PX70 at 9. Big Cats must have access
to heated or cooled areas when ambient temperature
falls below 30 degrees Fahrenheit, adjusted for
windchill, or rises above 85 degrees Fahrenheit;
greater caution must be with elderly, infant, and
disabled Big Cats. PX121 at 18 (Global Federation
of Animal Sanctuary (“GFAS”) standards); JX17. For
the Big Cats and at Tri-State, Candy monitors the
temperature in the Cat enclosures by just “feeling
it.” JX39, Candy Dep. Tr. at 135.
The summer months are equally brutal on the
cats. A few sparse trees and a single wall provide
inadequate shade, especially on days when the
temperatures creep into the 80s and 90s. Compare
DX1 at 33 with Trial Tr. vol. 4, 25. As a result, the
Cats are at risk for overheating, dehydration, heat

41a

sickness, and stroke. PX70 at 9.5
As for enrichment needs, lions are a highly
social species who travel in prides of as many as 40
lions. They enjoy a complex social structure in which
together they stalk, hunt, play, and rear young.
PX70 at 22; PX69 at 38. Solitude is extremely
stressful for lions and disrupts their natural social
behaviors; PETA’s experts opine that keeping a lion
in solitude does not meet commonly accepted
zoological practices. PX69 at 38 (Dr. Haddad); PX70
at 23 (Mr. Pratte).
Yet at Tri-State, Peka has lived alone in her
enclosure since 2011. Trial Tr. vol. 5, 94. Prior to his
death, Mbube also spent most of his life in solitude.
Id. Even though Mbube and Peka lived at Tri-State
together for several years, Defendants were never
able to house them in the same enclosure. Id.
The outdoor areas for the two lions included
nothing to engage them. No enrichment plan existed
for the lions because, according to Candy, the Big
Cats “make their own fun.” JX39, Candy Dep. 366.
Mbube had one ball. Trial Tr. vol. 4, 40. Peka’s balls
are punctured and dirty, as is her old, stuffed teddy
bear. PX84 at 57:22–1:05:00; Trial Tr. vol. 4, 76–80.
5

The tigers suffer from the same exposure to the elements. The
tigers must retreat into wooden uninsulated holding areas that
have gaps in the wood and brick, and which are hotter than the
ambient temperature in the summer and unheated in the
winter. Trial Tr. vol. 4, 45; JX39, Candy Dep. Tr. at 119–20;
PX70 at 36.

42a

Rather than providing meaningful enrichment,
these random, dirty toys were dangerous and
unsanitary. T rial Tr. vol. 4, 79. As Mr. Pratte aptly
noted, a lion forced to live in solitude with a single
ball for company is tantamount to confining a
human in a single room with a single book for years
on end. Trial Tr. vol. 4, 40. “That’s all you get. That’s
the only choice you have provided to you” if you are
a lion at Tri-State. Id.

Peka’s enclosure, PX85 at 115 (9/22/19)

c. Tigers (Cheyenne, Mowgli,
Cayenne, Kumar, and India)
Tigers, in contrast to the lions, are generally
solitary animals who should not be housed together.
Trial Tr. vol. 4, 63; PX70 at 52. But Tri-State,
inexplicably, housed three sibling tigers together
since they were cubs, and until each met their
untimely deaths. When they were alive, the two

43a

sisters, India and Cheyenne, as well as brother
Kumar, were all sexually active and noncontracepted. PX69 at 18. Veterinary records reflect
evidence of mating activity between India and her
brother, and in direct violation of generally accepted
animal husbandry practices. PX5 at 118. The tiger
siblings’ forced cohabitation ran contrary to their
basic and natural instincts, which manifested in
obvious signs of stress such as overt conflict and
stereotypic pacing, as well as an imbalance in
feeding. Trial Tr. vol. 4, 64–66; PX70 at 52. Kumar,
the brother, feasted, while the sisters went without.
At their deaths, each sister showed signs of poor
nutrition. Trial Tr. vol. 2, 85–86; PX70 at 52–53;
JX39, Woolard Dep. 258.
As for enrichment, the tigers lived in a fetid
cesspool. The tigers’ den was previously summer
camp concrete swimming pool, and has since been
repurposed by Candy to hold the tigers in captivity.
With little grass or foliage, the tigers lived for years
in conditions bearing little resemblance to their
natural habitat. PX16, Trial Tr. vol. 4, 21–22. Due to
the barren enclosure, they were given little
opportunity to do what tigers do—conceal, hunt,
prowl, stalk, or rest. PX 70 at 30; Trial Tr. vol. 4, 21–
22, 150. Moreover, because the pool sinks below
ground, the tigers were confronted constantly with
visitors peering into the exhibit from above. Trial Tr.
vol. 4, 21. Such placement violates generally
accepted husbandry practices because it induces

44a

constant fear of threats without means to escape or
hide. Id.

Tiger outdoor enclosure, PX33 (12/11/2014)
Tiger outdoor enclosure, PX24 (12/12/2014)

Like the lions, Tri-State gave the tigers nothing
remotely resembling adequate enrichment. Rather,
they had bowling balls for play that were never
changed or cleaned and were broken and jagged in
places. PX16; Trial Tr. vol. 4, 76; PX70 at 30–31.
Lack of adequate enrichment for Big Cats can cause

45a

frustration and distress, which can, in turn,
manifest as stress, hypertension, respiratory and
cardiac distress, suppression of the immune system,
atrophy of the hippocampus, myopathy, injury, and
ultimately death. PX70 at 55–56; PX69 at 17. Such
a barren environment fails to “stimulate normal
species-typical behaviors in any meaningful way.”
Trial Tr. vol. 4, 40. Cf. PX70 at 30 (noting that zoos
meeting industry standards would include for tigers
visual barriers affording privacy, varied substrates
for marking and scratching, barrier to weather, and
ledges and platforms for resting and vigilance).
4.

Inadequate and Unhealthy
Food

The food at Tri-State is commensurate with its
other deficiencies. Tri-State feeds its Big Cats
carcasses donated by hunters or delivered as
roadkill. Trial Tr. vol. 2, 88, 95. The USDA
discourages use of roadkill as food; however, if
roadkill is used, it must not be left out more than 12
hours or the risk of spoilage materially increases.
PX58 at 36 (2017 USDA Animal Care Policy
Manual); Trial Tr. vol. 2, 96. Tri-State maintains no
record of the freshness or source of roadkill nor does
it employ any reliable method of evaluating the
roadkill for disease or contamination. Trial Tr. vol.
2, 96, 101; Cf. PX 58 at 36–37 (manual requiring that
roadkill be evaluated for signs of disease, chemicals,

46a

and other issues). Although Candy attests to
knowing when roadkill is fresh, his methods are
rudimentary at best. Trial Tr. vol. 5, 40 (explaining
that if the dead animal’s “legs are sticking straight
up in the air[,] [i]t’s the sun dial effect and so we
don’t take those”).
Candy has also admitted to allowing carcasses
to remain in the Big Cats’ enclosures for up to three
days, or six times as long as recommended by the
USDA. JX39, Candy 30(b)(6) Dep. 169 (stating that
on at least one occasion, Mbube consumed a deer
carcass over “more than three days” and
subsequently stating that “[i]t’s usually only for a
couple of days we’ll leave a carcass sitting there.”).
Notably, the Defendants’ repeated defiance of USDA
guidelines presents not only loss in nutritional value
but also places the Big Cats at risk of “serious
[gastrointestinal] diseases” including sepsis, from
which India succumbed. Trial Tr. vol. 2, 96–101.
Nor does Tri-State employ generally accepted
standards in handling frozen meats fed to the Big
Cats. According to the USDA, “the thawing process
is crucial to the product’s final quality … [i]ncorrect
thawing increases the potential for nutrient loss,
lipid peroxidation

47a

(rancidity), microbial buildup, and loss of
palatability.” PX57 at 10 (2001 USDA Manual on
Handing Frozen/ Thawed Meat and Prey Items Fed
to Captive Exotic Animals). Meats must be thawed
under refrigeration,” “never…at room temperature”
and not “in standing water,” in order to maintain
freshness and nutritional integrity. Id. at 36–37.
Robust evidence demonstrates that Candy
defies these standards. In 2014 and again in 2018,
PETA representatives documented piles of grocery
store meat, some expired, left to thaw in a heated
room under the reptile exhibit while domestic cats
foraged freely atop the packages. Trial Tr. vol. 2, 86–
87, 107–11; PX11 at 22:00–22:35. Although Candy
at trial maintained that such meats were not fed to
the Big Cats, he testified otherwise in his deposition
and to the PETA representatives. JX39, Candy Dep.
258–59 (stating that some of the meat stored in the
furnace room under the reptile exhibit goes to the
Big Cats). The Court credits that the Big Cats were
indeed exposed to such rotting, putrid meats.

48a

Donated food in furnace room, PX11 at 22:09 (left) and
22:31 (right) (3/3/2018)

Critically, Candy and Tri-State persisted in
feeding the Big Cats dangerous spoiled food and
ignored the ready availability of “[a] number of
commercially prepared diets…appropriate for the
varying needs for exotic or wild felids.” PX58 at 36
(USDA Animal Care Policy Manual). Nor did TriState ever enlist the assistance of a trained
veterinarian, preferably in consultation with a

49a

nutritionist, to make sure the Big Cats were given a
safe and balanced food supply. Cf. id. Tri-State
maintains no records of written diets, or the use of
supplements, but does have a record of feeding their
Big Cats vastly outsized amounts of processed meats
and roadkill, which also controverts husbandry
standards. In short, the Big Cats were not provided
“basic nutritional needs,” Trial Tr. vol. 2, 88, 93–95,
the absence of which “result[s] in skeletal, structural
damage, neurologic problems, or other potentially
irreversible health problems including death.” PX58
at 36.
Fresh water, too, is scarce for the tigers.
Records show that the pools in the outdoor
enclosures are chronically filthy. PX24 at 6:30–7:05;
PX33; Trial Tr. vol. 1, 166. Water in the indoor
enclosures is similarly dirty and confined to small
dog bowls. See, e.g., PX28. Tigers tend to defecate in
the pools they sip from and failure to regularly clean
the water sources “expose them to a variety of
enteric pathogens and put them at risk of disease.”
PX69 at 20.
Unsurprisingly, no one at Tri-State tests the
water supply in the tigers’ enclosure. See JX39,
Candy Dep. 168 (“Q. Is [the water in the tigers’ pool]
tested at all? A. No.”).

50a

Tiger drinks from feces-lined pool, PX 24 at 6:50 and 7:00
(12/12/2014)

The lemur’s diet, like those of the Big Cats, was
also deficient. Lemurs should eat “[a]ssorted fruits
and vegetables, mazuri leafeater primate biscuits, .
. . a grain/seed mix.” PX69 at 14. They should not eat
foods high in sugar and starch, which “can
contribute to diarrhea, obesity, dental decay, and
diabetes.” Id. However, at Tri-State, Bandit and
Alfredo were regularly fed grapes, gummy bears,

51a

and baked goods. See, e.g., JX39, Candy Dep. 215,
393–94 (discussing treating the lemurs with baked
goods, such as cupcakes, every day); JX 39, Candy
30(b)(6) Dep. 371. No evidence demonstrated that
Defendants knew or cared about feeding the lemurs
properly.
B.

Deaths at Tri-State

In just over three years, five of the nine ESA
protected animals at Tri-State have died early and
tragic deaths. The Court incorporates its
determinations at the summary judgment stage
regarding Cayenne’s death, which corroborate
Defendants’ other ESA violations, but will not repeat
those facts here. However, the deaths of the other
four animals remain critical to understanding why
Defendants have so flagrantly violated the ESA. The
Court, therefore, summarizes its findings of fact as
to each animal in order of their deaths.
1.

Mbube, the Lion

Mbube (also known as “Bu”) was born March
15, 2005, lived most of his life in solitude, and was
euthanized on December 15, 2016. At the time of his
death, Bu was only 11 years old, well short of a
captive lion’s average lifespan of 16 to 18 years old.
PX1 at 9; Trial Tr. vol. 2, 161. Although the Court
does not know exactly what killed Bu, that is in part

52a

because Tri-State chose not to perform a necropsy on
him. The uncontroverted evidence, however, reveals
that Bu met a slow and painful demise without any
real veterinary care.
On August 2, 2016, Candy first noted that Bu’s
mane was “darkening [in] color” and thinning. Bu
was also “eating less.” PX1 at 13. As of that date,
Bu had lost so much weight that Candy could see his
“bare hips protruding more than normal” and noted
Bu experienced “watering from the eyes.” PX1 at 17.
Candy did not seek any veterinary help for Bu.
Bu’s condition persisted. So later in August,
Candy called Dr. Fox. Dr. Fox never examined Bu in
person, and instead gave his own personal
prescription of testosterone to Candy, who then
administered it to the lion. Trial Tr. vol. 5, 209; PX1
at 13, 17; JX39, Fox Dep. 306; PX10 at 82. Not
surprisingly, Bu’s condition worsened.

53a

Bu, healthy, PX35

Bu on September 11, 2016, JX34

Based on a review of the above right-hand
photo, taken on or around September 11, 2016, Dr.
Haddad opined that Bu was emaciated. Trial Tr. vol.
2, 170. “You can see very prominent pelvic bones. His
femur is sticking out. You can see his vertebra along
his spine. You can see his ribcage.” Trial Tr. vol. 2,
169. Again, Dr. Fox prescribed an antibiotic,
Clindamycin, to Bu without having first examined
the lion. Trial Tr. vol. 5, 67; PX1 at 13.

54a

Another
month
passed
without
any
improvement in Bu’s condition. Defendants’
dereliction as to Bu led to the USDA citing Tri-State
and Candy for failure to provide the lion adequate
veterinary care. PX10 at 82. As the USDA report
notes, Bu “is not in good health or body condition. He
appears thin and the pelvic bones are prominent.
His coat is rough and has turned a dark brown. And
the mane has thinned, as would be seen on a oneyear old lion. Thereis also a watery discharge around
the lion’s eyes.” Id.6
On October 11, 2016, a couple days after the
USDA visit—and more than two months after
Candy observed Bu in dire physical straits—Dr. Fox
finally examined Bu, PX3 at 10, and performed blood
tests two days later. Id.; PX4 at 25. Although Dr. Fox
speculated that Bu may be suffering from
hypothyroidism, Addison’s disease, or a pituitary
tumor, his speculations were plainly off-base. JX39,
Fox Dep. 72, 180; 305 PX1 at 14. As Dr. Haddad
noted, not only are such conditions extremely rare in
Big Cats, the test results did not support Dr. Fox’s
tentative diagnoses. Trial Tr. vol. 2, 172–75. Rather,
according to Dr. Haddad, the blood test, combined
with the physical condition of Mbube, signaled
anemia, which could be caused by other diseases or
conditions. Trial Tr. vol. 2, 174. Without further
In fact, the USDA has cited Tri-State for dozens of violations,
some of which resulted in a 45-day suspension of the zoo’s
license. See PX10; JX8.
6

55a

tests (which were never performed), Bu’s condition
could not be definitively diagnosed. Trial Tr. vol. 2,
175; see also PX69 at 60 (“When test results like this
occur, the generally accepted practice is to perform
additional diagnostic testing to get an actual
diagnosis, and then treat the underlying disease.”).
Two more months passed. Bu continued to
worsen. By December, he could not stand or walk
properly, and was not eating or drinking. PX1 at 15.
Bu was also falling over, “causing numerous cuts
[and] abrasions (largest bleed from tail).” Id.; PX69
at 62. Yet Tri-State and Candy did nothing to treat
Bu’s medical condition or make him comfortable
with palliative care. Trial Tr. vol. 2, 177. Bu was
euthanized two days later on December 15, 2016.
PX1 at 15.
Although Candy and Dr. Fox lamented the
“mystery” of Bu’s condition, Defendants declined to
perform a necropsy on Bu, which would have
provided important evidence regarding his cause of
death.
2.

Bandit, the Lemur

Bandit was born August 18, 2005, lived most of
his life alone and died on January 15, 2018. PX1 at
1. The scant medical records reveal that Bandit
never received any preventative veterinary care,
such as regular check-ups, vaccinations, or routine
tests. Records from 2006 reflect that he received one

56a

fecal test. PX1 at 2.
Bandit, however, suffered from a protracted
respiratory infection for nearly two years, from 2016
till his death in January 2018. See Trial Tr. vol. 5,
83–85; PX1 at 3–6 (Candy writing “congestion” and
“still concern with breathing, making a gurgling
sound, no drainage from eyes, nor sinuses); PX4 at
40 (record of prescriptions given to Bandit); PX4 at
39 (record from hospital noting “shallow breathing”
as the reason for the initial January 15, 2018 visit).
Although Candy says otherwise, no medical record
supports that Bandit received any examinations
until the day of his death. Rather, the records more
clearly reflect that Dr. Fox prescribed Bandit a
series of medications, again without examining the
animal, as was evidently custom at Tri-State.
Compare PX1 at 3 and PX4 at 40 (noting
prescriptions) with JX39, Fox Dep. 281 (“Q: But you
don’t have any record of why you would have
dispensed it? A: No, it may have been in one of those
conversations he came in and asked questions and
we said to try this to see if it improved.”).7
On January 14, 2018, Bandit was first observed
“bleeding from genital area” where he had “torn skin
and bites.” PX1 at 4. Candy took Bandit to Dr. Fox
7

Bandit also experienced wide fluctuations in his weight over
a short period of time, from three pounds to as much as six.
PX4 at 40; PX1 at 3. On the day he died, Bandit weighed 4.1
pounds. PX4 at 38. According to Dr. Haddad, “[t]his degree of
weight loss is suggestive of an undiagnosed and untreated
underlying disease condition.” PX69 at 12.

57a

the next day, who documented “torn prepuce,
damage to penis tip.” PX4 at 38. In layperson’s
terms, Bandit had ripped off his own penis. JX39,
Fox Dep. 289–90, 375–76. On the same visit, Dr. Fox
took x- rays of Bandit, and diagnosed Bandit with
disc disease on his vertebra. PX4 at 83–85, 38. It
was at this same visit that Bandit died. JX11 at 15.
Defendants now assert, with no medical support,
that Bandit died from “cancer.” PX1 at 1; JX11 at 15
(Defendants’ response to interrogatories: “He died of
cancer during a visit to the veterinarian…The tumor
was a degenerative tissue disease affecting the
mouth and sinus cavities and was not operable.”); Cf.
Trial Tr. vol. 2, 126–27 (Dr. Haddad noting that, of
the evidence provided, none points to cancer). And
again, Defendants chose not to perform a necropsy
on Bandit, even though Candy has kept Bandit’s
body, wrapped in a trash bag, in a freezer on zoo
grounds and for reasons not altogether clear to the
Court. JX11 at 5; Trial Tr. vol. 2, 136, 150. The Court
does not credit that Bandit died of “cancer.”
The Court does credit, however, that at the time
of Bandit’s death, he likely was in “a lot of pain” and
hypothermic. JX39, Fox Dep. at 260–62. In fact,
evidence shows Bandit was suffering from untreated
pain stemming from his unresolved respiratory
infection. PX4 at 39. However, like all the other
protected animals who died long deaths at Tri-State,
no record evidence reflects Bandit having received
any palliative care. PX69 at 13. It is also beyond

58a

dispute that Bandit exhibited signs of significant
distress. Both Dr. Haddad and Mr. Pratte opine that
Bandit’s ripping at his penis represented a longterm condition due to chronic stress and anxiety. See
Trial Tr. vol. 2, 137 (Dr. Haddad) (“self-mutilation is
a well-known cause or presentation of result of
chronic stress and anxiety… [s]o it’s most likely that
he did this to himself, and I would say my suspicion
would be that it was due to stress and anxiety”);
Trial Tr. vol. 2, 138 (Dr. Haddad) (“I did not see
anything to suggest that there was a medical
problem that caused him to in this one instance bite
at his genitals. So there’s definitely an underlying
most likely psychological problem. Again, stress,
anxiety would be my conclusion as what caused him
to self-mutilate himself.”); Trial Tr. vol. 4, 101 (Mr.
Pratte) (“I think that Dr. Haddad was correct with a
high probability that this was behavioral.”). Because
Bandit suffered no underlying medical condition to
explain his mutilated genitals, and in combination
with the deplorable conditions in which Bandit lived
every day—isolation or near isolation, stinky filth,
predators nearby—the Court credits PETA’s
experts’ conclusion that Bandit’s self-mutilation was
in “response to chronic distress.” Trial Tr. vol. 4, 102.
3.

Kumar, the Tiger

Kumar was born at Tri-State on March 24,
2007, along with his siblings India and Cayenne.

59a

PX1 at 38. Cheyenne, who remains at Tri-State, is
their mother. Trial Tr. vol. 5, 100. Kumar died on
July 7, 2019, at 12 years old, well short of the
average life span of tigers, who live into their teens
and twenties in captivity. PX6 at 1; Trial Tr. vol. 2,
161.
Kumar’s necropsy revealed that Kumar died of
a spinal infarct, or stroke of the spine. It is a rare
condition and cannot be attributable to Defendants’
acts or omissions. Trial Tr. vol. 2, 208–09. However,
the other findings on the necropsy, in concert with
the record evidence submitted at trial, show clearly
that Kumar died a long, painful death resulting from
his years of captivity in a fetid, concrete swimming
pool.
On June 27, 2019, Candy noted that Kumar
“was down” in an area where the cats usually
defecated. PX1 at 53. Two hours later, Kumar had
still not moved. Id. Candy notified Dr. Fox’s
replacement, Dr. Duncan, who evaluated Kumar
and gave him steroids, by injection, although the
course of treatment was not medically indicated. Id.
At that point, Kumar could not stand or lift his head
normally; he leaned on the platform for support and
had been incapacitated for eight hours. PX1 at 53;
PX5 at 106.
The next morning, Candy noted that Kumar
had dragged himself roughly 30 feet across his
enclosure; he had also chewed on both wood and
meat. PX1 at 53. In the days to follow, Kumar’s

60a

condition continued to deteriorate. He had difficulty
raising his head and could not get up. Id. at 54–55.
Then, he had to be hand-fed. Id. at 55. On July 1,
2017, Kumar was given without explanation,
another steroid shot. Id. at 56. He could not stand
and he could not eat. Candy had to syringe blended
food and water directly into his mouth. Id. Kumar’s
conditionremained the same for seven more days, till
his death on July 7, 2019. Id. at 57. For the ten days
Kumar was down, he received no meaningful care.
Although Dr. Duncan recommended on her first visit
on June 27, 2019 that Kumar be euthanized if he did
not improve, Candy and Tri-State never gave the
tiger anything to manage his pain and obvious
distress. PX5 at 106. Five days later, on July 2, 2019,
Dr. Duncan again noted that Kumar “remains
completely unable to rise” and “strongly
recommended euthanasia” to put Kumar out of his
pain and suffering. PX5 at 104. The “humane thing
to do,” Dr. Haddad opined, would have been to
euthanize Kumar as Dr. Duncan recommended.
Trial Tr. vol. 2, 211. Candy chose instead to let
Kumar suffer.
Alternatively, “[a]t the very minimum,” Kumar
“should have been given something for pain.” Trial
Tr. vol. 2, 210. Candy did not. PX5 at 104.8 On July
8

See also Trial Tr. vol. 2, 212 (“Q: And do you see any recommendation
by Dr. Duncan in her entries at this point in time, July 2, 2009,
recommending palliative care, pain meds, anything, something to make
him more comfortable? A: No. Unfortunately, no” “Q: Just one last
question. Pain meds for a tiger, I mean, are they expensive? A: They

61a

7, ten days after first being found down and
immobile and seven days after being unable to eat
without food being syringed into his mouth, Kumar
died.
The other results of Kumar’s necropsy bespeak
the horribly painful way in which he died.
Kumar’s mouth was riddled with ulcers, cuts,
and other injuries at the time of his death. Large
portions of two canine teeth were missing, exposing
the raw pulp. PX6 at 2, 10. One canine tooth had
punctured Kumar’s mandible, creating a deep,
penetrating wound. Trial Tr. vol. 2, 194. His gums
were heavily inflamed, and, deep sores lined his
mouth. PX6 at 2, 10; Trial Tr. vol. 2, 191–97. The
ulcers, broken teeth, wounds, and inflamed gums
were not only chronic, but consistently painful. Trial
Tr. vol. 2, 191–97.

don't have to be. You can—aspirin can be given to cats. That’s pretty
cheap. They are injectable. There's a whole variety of medications that
could be tried. So there is no excuse to not give pain medication.”).

62a

Necropsy photo of Kumar, PX6 at 10

Kumar also had open and painful ulcers and
lesions on each of his paw pads and the side of his
hind legs. PX6 at 6. The ulcers and lesions were
consistent with walking and laying on concrete his
whole life and then becoming infected through
exposure to the filth and feces in his enclosures.
Trial Tr. vol. 2, 197–200. As Dr. Haddad noted,
Kumar’s ulcers presented as having developed over
time, Trial Tr. vol. 3, 142. The skin from the padding
under Kumar’s toes was also “gone…falling
off…unhealthy.” Trial Tr. vol. 3, 156.
At the time of death, painful ulcers also lined
Kumar’s stomach, which was empty but for some
grass and wood. PX6 at 6; Trial Tr. vol. 2, 204–07.
Kumar’s colon was distended by firm feces composed
predominantly of large mats of fur, and there was a
two-centimeter long tear and hemorrhaging in the

63a

membrane of his abdominal cavity. Id. Dr. Haddad
opined that given the state of Kumar’s numerous
infections, administering steroids was not
recommended, and without also prescribing
medication to protect Kumar’s stomach, the steroids
quite likely contributed to his severe stomach
condition. Trial Tr. vol. 2, 204–07.
4.

India, the Tiger

India was born March 24, 2007 and died August
14, 2019, just over a month after her brother Kumar
and at an age significantly younger than the average
life expectancy for tigers held in captivity. PX1 at 41;
PX7 at 1. Prior to her death, she did not receive any
routine examinations or preventative veterinary
care.
India died of sepsis and myocarditis (enlarged
heart). PX7 at 3. Sepsis is a severe systemic bacterial
infection that tigers simply do not contract in
captivity. Trial Tr. vol. 3, 9, 28; PX69 at 104. Sepsis
ravaged India’s body so intensely that pus-filled
pockets had formed in her heart, tongue, and
diaphragm. PX7 at 3; Trial Tr. vol. 3, 27. The
pathologist report notes that the sepsis was likely
due to an untreated or poorly treated bacterial
infection and that the myocarditis was in turn the
result of the sepsis. PX7 at 3. Dr. Haddad opines that
India’s sepsis was likely brought about by exposure
to contaminated food or water and perpetuated by

64a

poor sanitary conditions and a lack of preventative
care. Trial Tr. vol. 3, 10–11.
India’s suffering was great, needless, and
ignored. In the month before her death, she ate
hardly anything; at the time of her death, her
intestinal tract was completely empty, and she was
pale and icteric. PX7 at 3. Icterus is either caused by
liver disease or the result of a prolonged period of
anorexia, the latter of which was the likely culprit.
PX69 at 104. Additionally, the pus-filled pockets in
her heart and diaphragm made her every breath
painful.
Despite these symptoms, Tri-State and Candy
ignored India’s serious condition.
Although she had not eaten much during July,
Candy summoned no veterinary assistance. By the
time Dr. Duncan saw India in the beginning on
August 10, 2019, the cat was already sick. That day
alone, she had not moved, ate, or drank, and,
atypically, had allowed Candy to enter her pen. PX7
at 3; PX5 at 118. Indisputably, India was gravely ill.
Trial Tr. vol. 3, 19.
Blood tests on India revealed that she was
suffering from a severe infection9 necessitating
immediate aggressive, broad spectrum antibiotic
Dr. Duncan offered a potential diagnosis of pyometra, an
infection of uterus, on August 10, 2019, PX5 at 118, which
according to Dr. Haddad was a reasonable hypothesis that
needed to be further explored and ruled out, but Defendants
took no such action.
9

65a

therapy, as well as fluid therapy and pain
medication. PX5 at 119; PX69 at 102; Trial Tr. vol.
3, 21. Defendants, however, did nothing for three
more days. PX5 at 115–119. India’s condition
deteriorated rapidly, and on August 12 and 13, after
India had stopped eating and eliminating her
bowels, Dr. Duncan urged immediate transfer to a
facility that could conduct further diagnostics and
life-saving surgery. PX5 at 115. Candy declined—
even when Dr. Duncan stated that India “will likely
die without a referral.” Id.
Not only did Defendants neglect to treat India’s
infections, they also did nothing to make her
comfortable. For over a month, India ate little to
nothing as a virulent infection ravaged her body.
Her heart was enlarged, which is “considered
incredibly painful. It’s like having a heart attack.”
Trial Tr. vol. 3, 20. The diaphragm was similarly
infected and filled with pus— “so every time she took
a breath, she was in pain.” Id. India received no
palliative care. Not even aspirin. Id.
Defendants’ abject neglect of India was not
confined to her last month. Throughout her life, flies
feasted on India’s ears. PX1 at 44 (Candy noting
“[t]ips of ears raw. prob due to flies”); PX1 at 43
(2017 medical record stating “continue to treat ears
for scratches/ flies”); Trial Tr. vol. 1, 166 (2018 Zoo
visitor describing tiger’s ears covered in flies and
dripping blood).
Defendants offered India minimal treatment

66a

for her ears (sprays and cleaning) but did not take
steps to rectify the source of the problem (likely,
sanitation issues), even though Candy noted that
the problem was reoccurring. PX1 at 43–44. Ear
conditions like this, according to Dr. Haddad, are
entirely preventable through proper sanitation and
treatment. Trial Tr. vol. 3, 31. Remarkably, India’s
ears had been eaten so badly and for so long that the
veterinarian who performed her necropsy believed
that her ears had been “surgically truncated.” PX7 at
4. No record evidence suggests India had undergone
such surgery. Instead, India’s “ear tips were so
chronically eaten away by flies that it appeared to
the pathologist as though someone had actually cut
off some of that tissue.” Trial Tr. vol. 3, 28.
C.

The Three Living Protected
Animals Currently at TriState
1.

Peka, the Lion

Peka, born April 21, 2011, came to the zoo when
she was two days old. PX1 at 23. Since then, she has
lived in solitary confinement, in a barren enclosure
devoid of meaningful enrichment, completely
divorced from her natural pride habitat. PX69 at 37–
38. Peka, as a female lion, is particularly social.
PX69 at 38. PETA’s experts agree that Peka’s
solitary confinement produces a constant source of

67a

stress and negatively impacts her physical and
psychological health—conditions magnified by little
to no enrichment. PX69 at 38–41. Peka’s stress is
evident from a well-worn path on the perimeter of
her enclosure. PX69 at 41. Despite having a sizeable
plot of land to roam, Peka has paced back and forth
and worn the grass down to the dirt. Id.
Stereotypic pacing is a generally accepted sign
of stress in Big Cats and should be addressed
promptly. PX70 at 10. No evidence exists that
Defendants have done anything to rectify Peka’s
stress, or even that they have recognized that she is
in distress.
It is undisputed that Peka also suffers from an
abnormal gait yet has never been examined or
treated for it. PX70 at 16; Trial Tr. vol. 2, 180; PX69
at 51. The abnormal gait likely causes Peka
discomfort and pain and puts her at risk of further
joint problems such as degenerative joint disease.
Trial Tr. vol. 3, 134; PX70 at 16; PX69 at 51. But
because Peka has received no regular veterinary
care and was taken from her mother immediately
after her birth, Defendants’ chronic inattention has
put Peka in a black box as to her health status. PX69
at 46–47; Trial Tr. vol. 2, 178–80.
2.

Cheyenne, the Tiger

Cheyenne was born March 2003, and like Peka,
her health remains a mystery because Defendants

68a

have provided her no health care. PX1 at 45. She has
lost all three cubs, Cayenne, Kumar, and India. And
yet even after their terrible deaths, Defendants have
not performed any laboratory testing, nutritional
assessment, or other physical examination to protect
Cheyenne from a similar fate. PX69 at 109. She has
also not been tested for feline viral diseases, nor has
she received any of the recommended feline
vaccines. Id. However, Cheyenne remains in the
same deplorable conditions as the other four dead
Big Cats.
3.

Mowgli, the White
Tiger

Mowgli is a white tiger, born July 31, 2009 and
acquired by Tri-State shortly after. PX1 at 34.
Mowgli has suffered for many years and continues
to suffer from a reoccurring skin condition. PX1 at
35 (medical form from 2014, 2015, 2016, and 2017
stating that skin condition is an “annual concern”);
JX39, Candy Dep. Tr. at 296 (testifying that they
treat Mowgli’s skin condition every year).
Defendants speculate that Mowgli has either rain
rot or ringworm. PX1 at 35–36; Trial Tr. vol. 5, 97
(“We had that tested with a skin scrapping and some
hair tissue, and I was told it was either rain rot or
ringworm”). Despite Defendants’ belief that these
two conditions are the same, Trial Tr. vol. 5, 98, they
are markedly different. Ringworm is a fungal

69a

infection with a range of treatments. PX70 at 42.
Rain rot is a bacterial infection, requiring a
completely different medical course of treatment. Id.
A definitive diagnosis is easily obtained through a
skin biopsy. Defendants have not obtained the
biopsy and nothing in the record suggests their
disinclination will change in the future. Trial Tr.
vol. 3, 33–34; PX70 at 42.
Mowgli’s skin condition manifests itself in red,
itchy hotspots and large patches of lost fur. JX20.
The condition creates a risk of additional infections
as the loss of fur allows bacteria—plentiful in
Mowgli’s unsanitary enclosure—to enter his skin
and proliferate, and the constant rubbing of his skin
across the deteriorating wood in his enclosure drives
bacteria further into his lesions. Trial Tr. vol. 3, 32,
35. In addition, because Mowgli is a white tiger, he
suffers from an already compromised immune
system, making him especially susceptible to
disease, and thus, especially vulnerable to
Defendants’ inadequate care. PX69 at 20.
The Court credits that Mowgli’s skin condition
has been caused and exacerbated by Defendants’
dereliction. Trial Tr. vol. 4, 35–36; Trial Tr. vol. 3,
36. His enclosures are uninsulated, damp, rarely
cleaned, and filled with feces and rotting carcasses.
See PX27. He is fed contaminated food and is
constantly exposed to diseases from humans, freeroaming cats, and other animals. Defendants have
not taken any meaningful steps to change Mowgli’s

70a

environment since this litigation began almost three
years ago.

Of the screenshot on the left, Dr. Haddad opined, “Where
we see the pink, those are patches of hair loss. So
alopecia…[i]t’s a hard to see here, but it is moist. So he’s
got a secondary bacterial infection happening already.
. . he’s continually rubbing his body against this plywood
wall because it's extremely itchy. He's very uncomfortable.
And by doing that, he's continuing to basically drive
bacteria into his skin, which is going tocreate an even
worse bacterial infection.” Trial Tr. vol. 3, 35.
Mowgli, JX20 at :04 (1/28/2015)

Mowgli, PX85 at 95 (9/22/2019)

71a

Mowgli is also severely overweight. See righthand photo above (taken Sept. 22, 2019). His body
condition score is 7 on a scale of 1 through 9, with 9
being morbidly obese. PX69 at 106. He is flabby and
untoned, also reflecting muscle loss. Id. Like the
other protected animals at Tri-State, nothing is
known about Mowgli’s medical history. As a white
tiger, Mowgli is immune-compromised and thus
susceptible to diseases, and despite his suffering for
years with an obvious skin condition, Defendants
have produced no record evidence that Mowgli has
ever had a routine examination by a veterinarian or
received basic vaccinations. PX69 at 107.
D.

The Lone Escapee: Alfredo,
the Lemur

Alfredo’s birthday is unknown (though Candy
guesses he is nine years old), and he was acquired by
Defendants on June 11, 2012. PX1 at 7; JX7 at 1. He
shared an enclosure with Bandit for five and a half
years, before Bandit’s death on January 15, 2018.
Alfredo was then transferred to the Maryland Zoo on
March 1, 2018, by agreement. JX7 at 3. Thus, even
though Alfredo is not currently at Tri-State, the
Court must reach whether he had been subjected to
a take in so far as Defendants may seek to return
Alfredo to Tri-State.
The Maryland Zoo, prior to receiving Alfredo,
asked Candy for medical records so that they could

72a

plan for his stay. JX7 at 5. Candy responded by
email, “He is pretty easy. No medical form as he has
never been sick nor needed any vet care while at our
zoo.” Id. Indeed, no medical records for Alfredo exist
for his entire six years at Tri-State. Clearly, Alfredo
had undergone no preventative care at Tri-State—
despite being housed in a barren enclosure
surrounded by olfactory (urine, feces, decaying
leaves) and auditory (dog barking) stressors.
Candy’s assumption raises the obvious question
posed by Dr. Haddad: How do they know Alfredo’s
never been sick, if they’ve never examined him?
Trial Tr. vol. 2, 155.
By contrast, Alfredo’s first month at the
Maryland Zoo generated 19 pages of veterinary
records. JX6 at 1–19. Alfredo’s “first couple of weeks
[at the Maryland Zoo]” provided “more care than he
received…for his entire life [] at Tri-State.” Trial Tr.
vol. 2, 157.

II.

Standard of Review

The Endangered Species Act (“ESA”) protects
covered animals, which include lions, tigers, and
lemurs, from an unlawful taking. 16 U.S.C. §
1538(a)(1)(B); 50 C.F.R. §§ 17.11, 17.21(c), 17.31(a).
The ESA also prohibits possession of unlawfully
taken lions, tigers, and lemurs. 16 U.S.C. §
1538(a)(1)(D).

73a

To “take” a species means to “harass, harm,
pursue, hunt, shoot, wound, kill, trap, capture, or
collect, or attempt to engage in any such conduct.”
16 U.S.C. § 1532(19). A “take” must be construed in
the “‘broadest possible manner’” to provide
maximum protection under the Act. Babbitt v. Sweet
Home Chapter of Communities for a Great Or., 515
U.S. 687, 704 (1995) (quoting S. Rep. No. 93-307, at
7 (1973), reprinted in 1973 U.S.C.C.A.N. 2989,
2995).
One manner in which an animal is subject to a
take under the ESA is if the animal is harassed. To
“harass” a covered animal means to intentionally or
negligently “create[] the likelihood of injury to
wildlife by annoying it to such an extent as to
significantly disrupt normal behavioral patterns.” 50
C.F.R. § 17.3. Pertinent to this matter, inadequate
housing and care of lemurs and tigers may
constitute “harassment” as defined under the ESA.
Kuehl v. Sellner, 161 F. Supp. 3d 678 (N.D. Iowa
2016), aff’d, 887 F.3d 845 (8th Cir. 2018).
An animal is also “taken” if he is harmed. Harm
“means an act which actually kills or injures
wildlife.” 50 C.F.R. § 17.3. The ESA also prohibits
attempted harm, and as such, manifests that the
statute is “designed to include claims of future
injury.” Animal Welfare Inst. v. Beech Ridge Energy
LLC, 675 F. Supp. 2d 540, 563 (D. Md. 2009),
judgment amended, No. 09- 1519 (RWT), 2010 WL
11484179 (D. Md. Jan. 26, 2010); see also People for

74a

Ethical Treatment of Animals, Inc. v. Miami
Seaquarium, 879 F.3d 1142, 1150 (11th Cir.),
adhered to on denial of reh’g sub nom. People for the
Ethical Treatment of Animals, Inc. v. Miami
Seaquarium, 905 F.3d 1307 (11th Cir. 2018) (reading
“harm” to also include a threat of serious harm).
The Court recognizes that the interpretation of
the ESA as to the degree of injury or potential injury
necessary to constitute harassment or harm is scant
and in disharmony. In Graham v. San Antonio
Zoological Soc’y, for example, the court determined
that harm or harassment under the ESA requires
“more than any minor injury or harm in the literal
sense” but “comes short of requiring a ‘grave threat.’”
261 F. Supp. 3d 711, 743 (W.D. Tex. 2017).
However, at least one other court has required
proof of “threat of serious harm,” although not
limited just to “deadly or potentially deadly harm.”
Miami Seaquarium, 879 F.3d at 1150. This Court
need not wade into this debate because, as more
fully explained below, the evidence overwhelmingly
demonstrates that every protected animal has been
harassed, harmed, or both in a most grievous fashion
at Tri-State.
III.

Analysis
A.

Standing

As a preliminary matter, the Court addresses

75a

PETA’s standing to bring this suit. At trial,
Defendants argued that PETA had not suffered a
sufficiently concrete and particularized injury to
confer standing. Based on the record evidence,
however, the Court finds that PETA indisputably
has standing.
PETA as an organization may establish what is
known as organizational standing on its own behalf.
Equal Rights Ctr. v. Equity Residential, 798 F. Supp.
2d 707, 719 (D. Md. 2011). Organizational standing
is conferred where the defendants’ misconduct
causes injury to the organization by frustrating the
organizational mission, thus requiring the
organization to divert resources in response. Id. at
720; Havens Realty Corp. v. Coleman, 455 U.S. 363,
379 (1982). The record evidence at trial
demonstrates that PETA’s mission has been
frustrated through its protracted involvement in
attempting to prevent the abuse of protected species
and correct the misperception that Tri-State
properly cares for the same. Compare Trial Tr. vol.
4, 181–82 (Brittany Peet, Director of the Captive
Animal Law Enforcement Division of PETA, noting
that PETA’s mission requires it to protect and rescue
animals from conditions of abuse and neglect) and
id. at 183 (noting that Defendants’ actions have
impaired this mission) with People for the Ethical
Treatment of Animals, Inc. v. Miami Seaquarium,
189 F. Supp. 3d 1327, 1338 (S.D. Fla. 2016), aff’d, 879
F.3d 1142, 1146 n.5 (11th Cir. 2018), adhered to on

76a

denial of reh’g, No. 16-14814-BB, 2018 WL 4903081
(11th Cir. Oct. 9, 2018) (finding that the alleged
“take” of an animal is in “direct conflict with PETA’s
mission of protecting animals” and therefore
evidence in favor of satisfying the “injury in fact”
element of the standing analysis); Compare Trial Tr.
vol. 4, 183–87 (Peet citing examples of how
Defendants deceptively hold themselves out to be a
sanctuary,
thereby
creating
the
public
misperception that their animal welfare standards
are acceptable, if not laudable) with Organic
Consumers Assoc. v. Sanderson Farms, Inc., 284 F.
Supp. 3d 1005, 1011 (N.D. Cal. 2018) (finding
standing for organizations that promote organic
consumption in suit against company that
deceptively labeled products as “natural”).
The record evidence also establishes that PETA
has diverted significant resources in response to TriState’s actions. Trial Tr. vol. 4, 188–214 (Peet
testifying that since 2006, PETA has complained to
the USDA and other regulatory agencies, monitored
inspection records, raised awareness of Defendants’
actions through media, and filed lawsuits—all of
which occupy a significant amount of time and
resources). The Court thus finds that PETA has
standing to bring this suit.

77a

B.

Defendants Have Subjected
the Protected Animals to a
Take

The dead animals at Tri-State share
frighteningly similar experiences that, in retrospect,
foreshadow their early deaths. All lived in squalid
conditions, languished with no enrichment, failed to
receive preventative care, were evaluated by a
veterinarian only when on the brink of death, were
misdiagnosed, and received no pain management to
ease their suffering. The remaining animals live in
the same conditions as did their predecessors, only
they are lucky to have survived thus far. The Court
finds that each of the protected animals has been
subjected to a take under the ESA, as addressed by
species below.
1.

The Lions

The Court finds that Tri-State’s deplorable
conditions have harassed Peka and Mbube. Each
has lived in isolation and were given no “social
interactions [that] are integral to the well- being of
lions.” PX70 at 22. For years, neither Bu or Peka had
any chance to engage in a wide range of normal
social behaviors, such as grooming, stalking,
hunting, and play. PX69 at 38. Their enclosures are
barren. They are exposed to harsh temperatures
with little reprieve. A well- worn path in the

78a

enclosure reflects that the stress of such an
environment resulted in repetitive pacing. PX69 at
41. Peka, the only living lion, is in indefinite
isolation. She lives, in short, wholly contrary to how
nature intended. The creation and perpetuation of
drastic conditions has fosterd the likelihood of
serious injury to Peka “by annoying it to such an
extent as to significantly disrupt normal behavioral
patterns.” 50 C.F.R. § 17.3.
The Court further finds that Defendants’
failure to diagnose and treat Peka’s gait abnormality
constitutes harassment under the ESA. Peka’s
longstanding condition likely causes her chronic pain
and interferes with species-typical behaviors,
including walking, roaming, and scratching. Trial
Tr. vol. 2, 180; PX69 at 51. Peka’s gait abnormality
is obvious to Defendants,

79a

yet nothing has been done to treat Peka—ever—
despite the availability of simple diagnostic tools
such as an x-ray. Trial Tr. vol. 2, 181–83. Refusing
to treat Peka has likely exacerbated her condition in
such a manner that significantly interferes with her
normal species behavior. Thus, Defendants have
subjected Peka to a take under the ESA.
Defendants have likewise taken Bu. For Bu’s
entire life, Defendants provided him no veterinary
care. See supra Section I.B.1. At the end of his life,
he suffered for months before Defendants even
notified
a
singular,
patently
unqualified
veterinarian. By this point, Bu was starving. He was
emaciated. He had received so little attention that
the USDA required that Defendants provide Bu
adequate veterinary care under penalties of losing
their exhibitor license. Defendants anemic attempts
to comply with the USDA are reflected in the results.
Nearing death, Bu was at one point so weak that he
was constantly falling over, cutting and bruising his
own body. See supra Section I.B.1. It is without
question that Defendants have harmed Mbube, to
the point of a painful death, and in violation of the
ESA.10

10

Defendants also harassed Bu. Failing to provide veterinary
care for months—to a point where Bu lay weak, injured, and
emaciated—significantly disrupted Bu’s normal behavior
patterns of eating, walking, grooming, and play.

80a

2.

The Tigers

The Court next finds that Defendants provision
of squalid living conditions harassed the tigers. The
tigers’ concrete dens, in which they have been
confined for their entire lives, defy generally
accepted husbandry practices. The record evidence
shows the swimming pool den as a dirty, dilapidated
pen. The water in the outdoor enclosures is similarly
filthy, static, and filled with feces. See supra Section
I.A.3.c. The water in the indoor enclosures, too, is
dirty and sits in uncleaned bowls. Id. Failure to clean
routinely the animals’ enclosures squarely
disregards industry standards. See PX93 at 13
(Tiger Care Manual from the AZA stating, under
“cleaning and sanitation,” that “dirt and grass
substrates in outdoor enclosures should be spotcleaned daily. Hard surface enclosures, both inside
and out, should be cleaned daily and disinfected
routinely”); see also Trial Tr. vol. 4, 34. The filthy
state of the tiger’s enclosures is shocking but not
surprising—no protocol or schedule for cleaning and
sanitation of the tigers’ enclosures exists at TriState. PX69 at 19.
Tri-State’s lack of sanitation for the tigers “puts
them at risk of bacterial infection as well as other
diseases that could be spread due to the attraction of
rodents and insects to the feces and food waste.”
PX69 at 21. This risk is not just hypothetical—at
least two of the tigers (India and Mowgli) contracted
diseases (sepsis and ringworm or rain rot) consistent

81a

with unhygienic conditions. Poor sanitation with a
track record of causing infection and death creates
an ongoing and serious threat of injury for the tigers.
According to AZA standards, tiger enclosures
should be designed with a variety of vegetation,
water sources, trees, and natural substrates to offer
them the chance to exhibit natural behaviors. PX93
at 12. Exposure to concrete should be minimal, and
they should be provided with a complex and
changing enrichment. PX69 at 16. The tigers’
enclosures at Tri-State stands in direct contrast to
these standards. It is, in short, a concrete jungle. See
supra Section I.A.3.c. As a result, the barren
enclosures and lack of enrichment deprive the tigers
of their ability to “engage in their natural behaviors
such as stalking through brush or grasses,
scratching on trees or deadfall, [and] exploring
different vantage points on platforms.” PX69 at 17.
Further, the “lack of enrichment leads to boredom
and the development of abnormal behaviors such as
pacing, excessive grooming, and other potentially
self-injurious behaviors.” PX69 at 17. The enclosures
are also deficient in that their lack of insulation and
adequate cooling and shade puts the tigers at risk of
hypothermia, dehydration, and damage to the cats’
pads and mucous membranes, as well as
overheating, dehydration, heat sickness, and stroke.
PX70 at 9, 36. Overall, the tigers’ enclosures are so
far removed from their natural habits and from
accepted husbandry practices that they significantly
disrupt a multitude of typical tiger behaviors and

82a

put the tigers at a high likelihood of injury. As such,
they constitute “harassment” of all the tigers (dead
and alive) and violate the ESA.
As to Kumar, the manner of his death
indisputably demonstrates that Defendants harmed
him. His necropsy reflects that he suffered for
months before his death, from broken, pulp- exposed
teeth, ulcerated gums, and a punctured lip. PX6 at
2, 10; Trial Tr. vol. 2, 191–97. The condition of his
mouth was undoubtedly painful, such that it
“affected [his] ability and desire to eat,” one of his
most basic functions, as well as his ability to groom
himself. Trial Tr. vol. 2, 191–97. Similarly, Kumar’s
paws and hind leg were pocked with ulcers most
likely caused by the filthy concrete on which Kumar
had dragged his body while Defendants left him to
suffer after his spinal stroke. PX6 at 6; Trial Tr. vol.
2, 197–200. Defendants’ complete failure to treat
Kumar’s mouth and paws, while leaving him to
languish in filthy surroundings, caused injury to
Kumar and disrupted his normal behaviors such
that he was both harmed and harassed in violation
of the ESA.
The lack of veterinary care during the days
leading up to Kumar’s death also injured Kumar and
significantly disrupted his normal behaviors, such
that it constitutes both harm and harassment under
the ESA. Kumar was “down” for ten days. He did
not eat. He had to drag his body across the enclosure.
Yet he received no adequate evaluation, treatment,
or pain management, which unnecessarily

83a

prolonged whatever illnesses he endured. See supra
Section I.B.3. His health was worsened, in fact, by
the decision to treat him with steroids, without any
medical reason to do so and without medication to
protect his stomach. Trial Tr. vol. 2, 204–07.
His necropsy reveals stomach ulcers, a
distended colon, and hemorrhaging in the
membrane around his abdominal cavity—all painful
injuries that were likely a direct cause of inadequate
veterinary care. See supra Section I.B.3. Defendants’
take of Kumar is beyond any doubt to this Court.
India, too, was harassed and harmed directly
by Defendants. India died of sepsis, an infection of
colossal proportions not seen in cats in captivity.
Trial Tr. vol. 3, 28 (Dr. Haddad) (“Sepsis doesn’t
happen in zoos. Tigers don’t die of sepsis. This is just
unbelievable to me.”). For more than a month,
Defendants allowed the virulent infection to ravage
India. See supra Section I.B.4. She barely ate or
moved yet was given no care. Id. In fact, Candy
expressly refused to secure medical treatment—
even when Dr. Duncan told him that failure to do so
would lead to her death. PX5 at 115. And, while
opting
to
ignore
treatment,
Defendants
simultaneously failed to provide her with anything
to ease her severe pain. India’s myocarditis and pusfilled pockets in her heart and diaphragm meant she
experienced daily pain “similar to a heart attack”
and that occurred “every time she took a breath.”
Trial Tr. vol. 3, 20. And at the time of her death,
India’s ears had been so mangled by flies that the

84a

veterinarian
who
performed
the necropsy
mistakenly believed her ears had been surgically
truncated. See supra Section I.B.3. Unquestionably
Defendants are directly responsible for India’s
death. Their violation of the ESA is patent.
Defendants have thus subjected India to a take
under the ESA.
Although Mowgli is thankfully alive, it is the
result of good fortune and in spite of Defendants’
lack of care. Mowgli is obese. His muscles are flaccid.
He has suffered for years with a skin infection that
can easily be diagnosed, but has yet to be, and which
is likely easily treated, but has not been. See supra
Section I.B.5. Video evidence shows Mowgli in
obvious discomfort as he rubs his coat continuously
across deteriorating wood in his damp enclosure. Id.
As he is a white tiger, his caretakers must be ever
more vigilant to avoid disease and infection. Trial
Tr. vol. 4, 35. Yet he has lived, for years, in the same
environment as did Kumar and India, two victims of
obvious painful infections. Defendants have injured
Mowgli and as such, have harassed and harmed him
in violation of the ESA.
3.

Lemurs

Defendants subjected Bandit and Alfredo to an
onslaught of environmental assaults that harassed
and harmed them. Bandit lived largely in isolation
and contrary to his normal species behavior. PX70 at
72–73; Trial Tr. vol 4, 92–93. He, and later with

85a

Alfredo, were deprived of any real opportunity to act
as lemurs do. PX70 at 59. In a stark environment,
Bandit and Alfredo could not forage, explore, mark,
or engage in other normal behaviors. PX69 at 7.
Defendants further harassed the lemurs by
surrounding them with filth and a natural predator.
See supra Section I.A.3.a. Smells of lingering urine
and feces disrupted their olfactory communication
and their ability to scent-mark and put them at high
risk of physical pain and permanent physical
damage to their mucous membranes. Id. Defendants
also failed to protect the lemurs from the elements
for nearly half of calendar year 2015. Id. Exposure
to such temperature visits harm on lemurs’ health,
including hypotension, suppressed appetite, and
increased vulnerability to disease. Trial Tr. vol. 2,
144; PX70 at 61.
The lemurs’ isolating, barren, freezing, dirty,
stress-inducing enclosure essentially stripped
Bandit and Alfredo of almost of all their natural
behaviors, creating a high likelihood of both
psychological and physical injury. PX69 at 8; see
supra Section I.A.3.a. As such, Defendants harassed
both Bandit and Alfredo in violation of the ESA.
To be sure, Bandit’s life and death provides the
best evidence as to Defendants’ ESA violations with
regard to the lemurs. Bandit suffered for months
with a poorly treated respiratory infection. His
weight fluctuated significantly. See supra Section
I.B.2. Toward the end of his life, and for no medical
physical reason, Bandit bit, picked, and tore at his

86a

own penis. Id. Bandit’s death, in subfreezing
temperatures and for reasons not fully known,
bespeak his hard life at Tri-State.
The Court finds that Defendants’ chronic lack
of care to Bandit harmed him. The Court further
finds that Bandit’s self-mutilation was mostly likely
the result of significant distress that was the natural
byproduct of his living at Tri-State. See id.; Trial Tr.
vol 2, 137–138. Because Defendants confined Bandit
to an environment that disrupted his normal
behaviors leading to his self-mutilation, and because
they then failed to monitor, treat, and alleviate those
life-threatening and ultimately fatal injuries, they
have both harmed and harassed Bandit in violation
of the ESA.
As for Alfredo’s future, based on the totality of
the evidence, if he were returned to Tri- State, he
would be once again subjected to the same
deplorable conditions that caused him to be harassed
in the first instance. Nothing in the record suggests
that Alfredo would withstand Tri- State any better
than Bandit did. By contrast, Alfredo’s current
placement at the Maryland Zoo provides him a
welcome reprieve.
In sum, the Court finds that Defendants have
unlawfully “taken” or continue to “take” all animals
at issue—Cayenne, Mbube, Bandit, Kumar, India,
Mowgli, Peka, Alfredo, and Cheyenne—in violation
of the Endangered Species Act. Therefore, the Court
finds in favor of PETA on all theories of liability.

87a

IV.

Relief

Pursuant to the Declaratory Judgment Act, 28
U.S.C. § 2201 and the ESA, the Court will enter by
separate order a declaration that Defendants have
violated the ESA by unlawfully taking nine federally
protected animals, and continue to violate the ESA
by unlawfully taking the remaining Big Cats and by
continuing to possess the Big Cats who have been
unlawfully taken. The Court further will enjoin
Defendants, pursuant to 16 U.S.C. § 1540(g), from
continuing to violate the ESA with respect to the
animals at issue; permanently enjoin Defendants
from owning or possessing any endangered or
threatened species; and terminate Defendants’
ownership and possessory rights in the animals at
issue. Finally, the Court will order that Defendants
must immediately transfer ownership and custody
of the surviving animals to The Wild Animal
Sanctuary (TWAS).
On December 10, 2019, Defendants moved to
stay relief pending appeal. ECF No. 178. They argue
that injunctive relief would cause Defendants
irreparable harm and that a substantial likelihood
exists that they will prevail on appeal. The Court
flatly disagrees that based on this record, and all
prior rulings, Defendants are likely to succeed on
appeal. Moreover, the Court does not credit that
Defendants will suffer irreparable harm. In fact, the
record bears out quite the opposite: Defendants’

88a

protracted and flagrant violations of the ESA render
it likely that the remaining protected animals will
be irreparably harmed were the Court to stay its
order pending appeal.
Finally, the public interest, which the Court
must consider, counsels in favor of denying
Defendants’ requested stay. See Hilton v.
Braunskill, 481 U.S. 770, 776 (1987). Regarding
enforcement of the ESA as a matter of public
interest, “Congress has spoken in the plainest of
words, making it abundantly clear that the balance
has been struck in favor of affording endangered
species the highest of priorities.” Salix v. U.S, Forest
Service, 995 F. Supp. 2d 1148, 1155 (D. Mont. 2014),
aff’d sum nom Cottonwood Envtl. Law Ctr. v. U.S.
Forest Serv., 789 F.3d 1075 (9th Cir. 2015) (quoting
TVA v. Hill, 437 U.S. 153, 194 (1978)). The Court
finds that the public interest is best served by
ensuring that the remaining protected animals are
not forced to endure life at Tri-State any further.
Defendants’ motion for stay (ECF No. 178) is
therefore DENIED.
A separate order follows.
_/S/Paula Xinis_______
United States District Judge
Date: 12/26/2019

89a

APPENDIX 4
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
–Northern Division–

PEOPLE FOR THE ETHICAL
TREATMENTOF ANIMALS, INC.,
Plaintiff
–v–
TRI-STATE ZOOLOGICAL PARK OF
WESTERN MARYLAND, INC., et al.,
Defendants.
Civil Action No. 8:17-cv-2148-PX
ORDER
As explained more fully in the Court’s
Memorandum Opinion, having considered the
evidence presented to this Court during a six-day
bench trial in November 2019 and the Parties’ briefs,
regarding Plaintiff’s requested relief, pursuant to 28
U.S.C. § 2201, 16 U.S.C. § 1540(g), and this Court’s

90a

equitable powers, it is this 26 th day of December,
2019, by the United States District Court for the
District of Maryland, ORDERED that:
1.
Defendants
have
violated
the
Endangered Species Act (the “ESA”), 16 U.S.C. §§
1531-1544, and its implementing regulations by
unlawfully taking two federally protected lemurs,
five federally protected tigers, and two federally
protected lions at Defendants’ facility in
Cumberland, Maryland, and continue to violate the
ESA and its implementing regulations by unlawfully
taking two federally protected tigers, Mowgli and
Cheyenne, and one federally protected lion, Peka, 16
U.S.C. § 1538(a)(1)(B), (G); 50 C.F.R. §§ 17.11(h),
17.21(c), 17.31(a), 17.40(r);
2.
Defendants
have
violated
and
continue to violate the ESA and its implementing
regulations by continuing to possess two tigers,
Mowgli and Cheyenne, and one lion, Peka, that were
unlawfully taken, 16 U.S.C. § 1538(a)(1)(D), (G); 50
C.F.R. §§ 17.11(h), 17.21(d), 17.31(a), 17.40(r);
3.
Defendants
are
enjoined
from
continuing to violate the ESA and its implementing
regulations, including the prohibitions on taking a
listed species and possessing a listed species that
has been unlawfully taken;
4.
Defendants, their officers, agents,
servants, employees, and any other persons who are
in active concert or participation therewith are
enjoined from owning, acquiring, or possessing any

91a

endangered or threatened species of animals;
5.
Plaintiff’s proposed placement of the
tigers Mowgli and Cheyenne and the lion Peka (“the
Big Cats”) with The Wild Animal Sanctuary
(“TWAS”) is APPROVED with the consent of the
Defendants, without waiver of or prejudice to
Defendants’ rights in terms of seeking relief through
post judgment motion, appeal, or seeking a stay of
such relief pending appeal, and without any
concession by Defendants as to wrongdoing or
liability. The Defendants shall cooperate with the
Plaintiff and TWAS to effect the transfer of the Big
Cats.
6.
The Defendants shall comply with
reasonable requests by PETA and TWAS for
information about the Big Cats deemed necessary to
determine the Big Cats’ fitness for transportation to
TWAS.
7.
Within thirty (30) calendar days before
the Big Cats are to be transferred, Defendants shall
allow access by veterinarian(s) selected by Plaintiff
to conduct visual inspections of the Big Cats and
execute Certificates of Veterinary Inspection
required for their transport to TWAS.
8.
Defendants shall not administer any
sedation drug to the Big Cats within ten (10)
calendar days before the transfer of the Big Cats,
unless required for a medical or public safety
emergency. In the event Defendants administer or
cause a third-party to administer any sedation to the

92a

Big Cats, Defendants shall notify Plaintiff within
twenty-four (24) hours of such administration of a
sedation drug.
9.
Defendants shall provide Plaintiff and
TWAS, their vehicles, equipment and agents, full
access to the Big Cats and entry into their
enclosures, and to all facility egress points in order
the effect the safe transfer and loading of the Big
Cats.
10.
Defendants shall comply with any and
all reasonable instructions from Plaintiff and TWAS
to effect the safe transfer and loading of the Big
Cats, and Defendants shall not harass Plaintiff or
TWAS, interfere with the transfer of the Big Cats, or
otherwise create any dangerous condition or hostile
environment.
11.
The transfer and transport of the Big
Cats shall be subject to Plaintiff’s verification that
the Big Cats are in sufficient good health and
physical condition to be transferred and transported
to TWAS based upon the professional judgment of
veterinarian(s) selected by Plaintiff.
12.
Defendants shall cooperate with
Plaintiff and TWAS, including executing all
documents, including but not limited to a USDA
APHIS 7020 Form, to effect the transfer and
transport of the Big Cats to TWAS.
13.
Defendants
shall
not
“dart,”
anesthetize or otherwise take any measures to
immobilize the Big Cats, but the Plaintiff and TWAS

93a

are expressly authorized to do so, provided such
procedures comply with generally accepted animal
husbandry standards, the Animal Welfare Act, the
Endangered Species Act, and all other applicable
laws, and are performed under the supervision of a
licensed veterinarian(s) chosen by the Plaintiff.
14.
To mitigate the risk of aspiration after the Big
Cats are sedated, Defendants shall withhold all food
from the Big Cats, including removing all remnants
of food material from the Big Cat’s enclosures and
holding areas beginning at 7:00 am the day before
the scheduled day of the Big Cats’ transfer and
transport. Defendants shall provide the Big Cats
with clean, potable water at all times prior to the
transfer.
15.
The Plaintiff, TWAS, and Defendants
shall bring no more persons onto the property than
are necessary to efficiently effectuate the transfer
and transport of the Big Cats. To ensure the safety
of the public and those involved in the transfer and
transport of the Big Cats, the property of the
Defendants shall be closed to the public during the
transfer and transport of the Big Cats onto TWAS’s
transport vehicle(s). Although the Defendant’s
property shall be closed to the public during the Big
Cats’ transfer and transport, the transfer shall take
place during the week (and not weekends) between
8:00 am and 5:00 pm so that the parties may, if
necessary, contact the Court to resolve any dispute
that may arise during the course of the transfer.

94a

16.
No video recording, audio recording, or
photography shall be allowed while Plaintiffs and
TWAS are at Defendant’s facility for the transfer.
17.
No sooner than ten (10) calendar days
and no later than 45 calendar days from the date of
this Order, the parties are ordered to facilitate and
effect the physical transfer of the Big Cats as set
forth herein, based upon the availability of Plaintiff
and TWAS for such transfer and transport. This
time period may be extended, by up to 30 calendar
days by the mutual agreement of all parties, or if
necessary by Order of the Court.The Parties having
agreed that the relief set forth in this Order is to
constitute full relief and is a full and final judgment,
other than matters properly categorized as postjudgment proceedings, such as claims for costs, fees,
or post-judgment enforcement.
18.
The Plaintiff has warranted and
represented that TWAS is aware that the Big Cats
may be subject to lis pendens in this case and that
TWAS has agreed to take the cats subject to lis
pendens.
19.
The Defendants have filed a pro forma
Motion to Stay execution of any relief in this case
until the resolution of an appeal to the Fourth
Circuit. The motion (ECF No. 178) is hereby denied
and absent a compelling change of circumstance or
mutual agreement of the parties, any further
motions to stay the relief ordered herein will
likewise be denied.

95a

20.
No later than sixty (60) calendar days
following the filing of this ORDER, the Parties are
to provide a joint status report to this Court
regarding the transport of the Big Cats to TWAS.
21.
The Court retains jurisdiction over this
matter to the extent necessary to enforce this Order
and effectuate the relief ordered herein, and to
award reasonable attorney and expert witness fees,
and costs of litigation, pursuant to 16 U.S.C. §
1540(g)(4).
22.
By consenting to the form of relief set
forth within this Order, no party has waived any
rights that may apply either post-judgment or upon
appeal.
23.
The Court will enter a separate
judgment under Rule 58.

12/26/2019
Date

/S/Paula Xinis___
Paula Xinis
United States
District Judge

